<html>
<title> - EMPOWERING STATE AND LOCAL OFFICIALS THROUGH ENHANCED FEMA REGIONAL OFFICES</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]





  EMPOWERING STATE AND LOCAL OFFICIALS THROUGH ENHANCED FEMA REGIONAL 
                                OFFICES

=======================================================================

                             JOINT HEARING

                               before the

                      SUBCOMMITTEE ON MANAGEMENT,
                     INVESTIGATIONS, AND OVERSIGHT,

                                with the

                       SUBCOMMITTEE ON EMERGENCY
                     COMMUNICATIONS, PREPAREDNESS,
                              AND RESPONSE

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                              JUNE 4, 2007

                               __________

                           Serial No. 110-43

                               __________

       Printed for the use of the Committee on Homeland Security
                                     
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]



                                     

  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________





                  U.S. GOVERNMENT PRINTING OFFICE
48-918 PDF                WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office  Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, 
Washington, DC 20402-0001








                     COMMITTEE ON HOMELAND SECURITY

               BENNIE G. THOMPSON, Mississippi, Chairman

LORETTA SANCHEZ, California,         PETER T. KING, New York
EDWARD J. MARKEY, Massachusetts      LAMAR SMITH, Texas
NORMAN D. DICKS, Washington          CHRISTOPHER SHAYS, Connecticut
JANE HARMAN, California              MARK E. SOUDER, Indiana
PETER A. DeFAZIO, Oregon             TOM DAVIS, Virginia
NITA M. LOWEY, New York              DANIEL E. LUNGREN, California
ELEANOR HOLMES NORTON, District of   MIKE ROGERS, Alabama
Columbia                             BOBBY JINDAL, Louisiana
ZOE LOFGREN, California              DAVID G. REICHERT, Washington
SHEILA JACKSON LEE, Texas            MICHAEL T. McCAUL, Texas
DONNA M. CHRISTENSEN, U.S. Virgin    CHARLES W. DENT, Pennsylvania
Islands                              GINNY BROWN-WAITE, Florida
BOB ETHERIDGE, North Carolina        MARSHA BLACKBURN, Tennessee
JAMES R. LANGEVIN, Rhode Island      GUS M. BILIRAKIS, Florida
HENRY CUELLAR, Texas                 DAVID DAVIS, Tennessee
CHRISTOPHER P. CARNEY, Pennsylvania
YVETTE D. CLARKE, New York
AL GREEN, Texas
ED PERLMUTTER, Colorado
VACANCY

        Jessica Herra-Flanigan, Staff Director & General Counsel
                     Rosaline Cohen, Chief Counsel
                     Michael Twinchek, Chief Clerk
                Robert O'Connor, Minority Staff Director

                                 ______

       SUBCOMMITTEE ON MANAGEMENT, INVESTIGATIONS, AND OVERSIGHT

             CHRISTOPHER P. CARNEY, Pennsylvania, Chairman

PETER A. DeFAZIO, Oregon             MIKE ROGERS, Alabama
YVETTE D. CLARKE, New York           TOM DAVIS, Virginia
ED PERLMUTTER, Colorado              MICHAEL T. McCAUL, Texas
VACANCY                              PETER T. KING, New York (Ex 
BENNIE G. THOMPSON, Mississippi (Ex  Officio)
Officio)

                    Jeff Greene, Director & Counsel
                         Brian Turbyfill, Clerk
                    Michael Russell, Senior Counsel

                                  (ii)


  SUBCOMMITTEE ON EMERGENCY COMMUNICATIONS, PREPAREDNESS, AND RESPONSE

                     HENRY CUELLAR, Texas, Chairman

LORETTA SANCHEZ, California          CHARLES W. DENT, Pennsylvania
NORMAN D. DICKS, Washington          MARK E. SOUDER, Indiana
NITA M. LOWEY, New York              MIKE ROGERS, Alabama
ELEANOR HOLMES NORTON, District of   BOBBY JINDAL, Louisiana
Columbia                             DAVID DAVIS, Tennessee
DONNA M. CHRISTENSEN, U.S. Virgin    PETER T. KING, New York (Ex 
Islands                              Officio)
BOB ETHERIDGE, North Carolina
BENNIE G. THOMPSON, Mississippi (Ex 
Officio)

                        Craig Sharman, Director

                        Nichole Francis, Counsel

                         Brian Turbyfill, Clerk

        Heather Hogg, Minority Senior Professional Staff Member

                                 (iii)















                            C O N T E N T S



                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Christopher P. Carney, a Representative in Congress 
  From the State of Pennsylvania, and Chairman, Subcommittee on 
  Management, Investigations, and Oversight......................     1
The Honorable Rogers, a Representative in Congress From the State 
  of Alabama, and Ranking Member, Subcommittee on Management, 
  Investigations, and Oversight..................................     2
The Honorable Henry Cuellar, a Representative in Congress From 
  the State of Texas, and Chairman, Subcommittee on Emergency 
  Communications, Preparedness, and Response:
  Oral Statement.................................................     4
  Prepared Statement.............................................     4
The Honorable Charles W. Dent, a Representative in Congress From 
  the State of Pennsylvania, Ranking Member, Subcommittee on 
  Emergency Communications, Preparedness, and Response
  Oral Statement.................................................     5
  Prepared Statement.............................................     5
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Chairman, Committee on 
  Homeland Security..............................................     6
The Honorable Ed Perlmutter, a Representative in Congress From 
  the State of Colorado..........................................    36
The Honorable Loretta Sanchez, a Representative in Congress From 
  the State of California........................................    34
The Honorable Gene Taylor, a Representative in Congress From the 
  State of Mississippi...........................................    38

                               Witnesses

Mr. Bruce Baughman, Director, Alabama Emergency Management 
  Agency:
  Oral Statement.................................................    13
  Prepared Statement.............................................    16
Mr. Steve Delahousey, National Vice President, Emergency 
  Preparedness, Emergency Preparedness, Emergency Medical 
  Services Corporation:
  Oral Statement.................................................    17
  Prepared Statement.............................................    19
Major Phil May, Regional Administrator, FEMA Region IV:
  Oral Statement.................................................     7
  Prepared Statement.............................................     9
Mr. Brien C. Ruiz, President, St. Bernard Parish Fire Fighters 
  Association (IAFF Local 1468):
  Oral Statement.................................................    21
  Prepared Statement.............................................    23

                             For the Record

The Honorable Bobby Jindal, a Representative in Congress From the 
  State of Louisiana, Prepared Statement.........................     3

 
                       EMPOWERING STATE AND LOCAL
                       OFFICIALS THROUGH ENHANCED
                         FEMA REGIONAL OFFICES

                              ----------                              


                          Monday, June 4, 2007

             U.S. House of Representatives,
                    Committee on Homeland Security,
                Subcommittee on Management, Investigations,
                                             and Oversight,
                                           with the
Subcommittee on Emergency Communications, Preparedness, and 
                                                  Response,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 2:00 p.m., 228 
South Beach Boulevard, Bay St. Louis, Mississippi. Hon. 
Christopher P. Carney [chairman of the subcommittee] presiding.
    Present: Representatives Carney, Dent, Rogers, Cuellar, 
Thompson, Sanchez, and Perlmutter.
    Also Present: Representative Taylor.
    Mr. Carney. The subcommittee will come to order. The 
subcommittees are meeting today to receive testimony on the 
Empowering State and Local Officials Through Enhanced FEMA 
Regional Offices.
    I welcome Mr. Taylor and ask unanimous consent that he join 
us today. Hearing no objections so ordered.
    I now recognize myself for an opening statement. First I 
would like to thank the City and the people for being so kind 
as to host us here today. I know you've been through a lot and 
I hope hosting this hearing hasn't been too much of a burden.
    I would also like to take a second to thank Mr. Taylor for 
joining us. Every time I see him in the halls at the capital or 
on the floor of the house I'm reminded of the catastrophe you 
all endured, not that Gene's a catastrophe by any stretch, he 
has represented you very, very well.
    Finally, I would like to thank the mayors who took us on an 
amazing tour this afternoon. He chauffeured us around to visit 
this morning, and he shared many of the stories with us. 
They're very touching, but they didn't really paint the picture 
of what has happened down here and how far you've come and how 
far you really need to go.
    This is my first trip down here since the storm. I spent 
time in the gulf region, navy training at Pensacola, and I 
spent time in Houston as an educator.
    But today we're hoping to have some candid conversations, 
and we're here today to access how well FEMA has been working 
with state and local officials in the aftermath of Hurricane 
Katrina.
    I ran for congress because I was frustrated with what I saw 
was a lack of good government. FEMA's poor responses to major 
disasters such as flooding in northeast Pennsylvania where I'm 
from, and Hurricane Katrina are prime examples.
    I understand the severe devastating impact a flood can have 
on a community. Pennsylvania has seen several of it's 100 year 
floods in the last few years, which has destroyed lives and 
towns and houses. This was about the significant winds of your 
hurricane, so I have some small empathy for what you have gone 
through.
    But our flooding season in Pennsylvania is coming up and 
June is the official time when it begins. And we are not rest 
assured unfortunately that FEMA will be able to respond. We 
need accountability for FEMA so that we can better prepare 
ourselves for the future. I think we're all interested in 
hearing how, if at all, cooperation between local and state 
entities has improved with FEMA since congress enacted FEMA 
reform. So, please speak freely. We are here to listen. I thank 
you and I look forward to your thoughts.
    I now recognize the Ranking Member of the Subcommittee of 
Management Investigations and Oversight, the gentleman from 
Alabama, Mr. Rogers, for an opening statement.
    Mr. Rogers. Thank you Mr. Chairman. I'm proud to be back in 
the south and here in our neighboring state of Mississippi, and 
I want to thank all the witnesses for being here. I 
particularly want to take note of Bruce Baughman from the 
Alabama Department of Emergency Management. We are very 
fortunate to have him. Mr. Baughman was one of the highest 
ranking officials at FEMA before he left and came to Alabama, 
and he's also a past president of the National Emergency 
Management Association and a real pro.
    The folks in Alabama and Mississippi are lucky to have 
strong leadership for emergency management, and like Governor 
Riley and the folks in Alabama impacted by Hurricane Katrina, 
Mississippi has shown great resolve in leadership to build 
back. Under the strong leadership of Governor Barbour new 
programs have been rolled out that have allowed the folks in 
Mississippi to get back on their feet and begin rebuilding 
their state. As the Governor said, Mississippi will rebuild 
bigger and better than ever.
    One aspect of the Mississippi experience we will explore 
today is the interaction between state and FEMA regional 
offices. In the wake of hurricane Katrina Congress passed 
sweeping legislation to reform FEMA last year, and on January 
18, of 1907 Homeland Security Secretary Chertoff announced the 
reorganization plan for FEMA, which took effect March 31st.
    This is our committee's first field hearing after the 
reorganization of FEMA to hear firsthand from those involved in 
the process at the state and local levels. We will examine 
today how things have improved, if they've improved, in FEMA's 
regional structure, and whether additional steps may need to be 
taken to ensure states have the support they need from FEMA 
when disaster strikes.
    One of the first needs that's being faced after a disaster 
is to restore electrical power and key facilities such as water 
plants and secure drinking water for the residents. Therefore, 
one area we will explore is the extent to which FEMA has pre-
positioned bottled supplies, specifically water and generators, 
in states such as Mississippi and Alabama that are in the 
direct path of Gulf Coast storms.
    Another area we will explore is the extent to which FEMA 
works with states and localities to support prenegotiation of 
contracts for emergency goods and services. The ability of 
state and local agencies to negotiate contracts before disaster 
strikes is important to ensure emergency goods and services 
will be available when needed and to ensure localities are not 
victims of price gouging. To help states and localities in this 
area Congress included a provision in the FEMA reform 
legislation that provides for advanced contracting.
    Specifically, this provision requires FEMA to establish a 
process to ensure Federal prenegotiated contracts are 
coordinated with state and local governments. The provision 
also requires FEMA to encourage state and local governments to 
negotiate contracts for goods and services before a natural 
disaster or terrorist strike. This approach increases the 
safety of local residents while safeguarding taxpayer dollars 
in the future.
    We look forward to hearing from our witnesses about the 
extent to which this approach has been implemented and what can 
be done to encourage more prenegotiation of these contracts.
    And, Mr. Chairman, before I yield back I would like to note 
that Representative Bobby Jindal could not be here today, so I 
would ask that his statement be included in the record.
    Mr. Carney. Without objection, so ordered.
    [The information follows:]

                             For the Record

 Prepared Statement of the Honorable Bobby Jindal, a Representative in 
                  Congress From the State of Louisiana

    On May 22, 2007, the National Hurricane Center predicted a very 
active hurricane season, with 13--17 named storms, 7--10 hurricanes, 
and 3--5 major hurricanes. The prediction signifies an expected 
increase in storm activity in comparison to last year's hurricane 
season.
    As we enter this year's hurricane season, it is critical for all 
levels of government to have an established posture of hurricane 
preparedness. This should entail a unified partnership of operational 
capability too provide effective response and recovery.
    Federal and State governments were overwhelmed on the onset in the 
aftermath of Hurricanes Katrina and Rita. Over 90,000 square miles of 
Gulf Coast land was devastated by Hurricane Katrina, 650,000 people 
were displaced, 275,000 homes were completely destroyed. In Louisiana 
alone, a quarter of a million jobs were lost and 20,000 businesses were 
destroyed. Over $590 million in agriculture damages occurred in 
Louisiana resulting from Hurricane Rita devastation.
    Last year's Post-Katrina Emergency Management Reform Act of 2006 
included provisions to provide grants to State and local governments to 
develop mass evacuation plans and to help stockpile commodities and 
shelters. The Act also required FEMA to enhance its regional offices 
through stronger coordination between federal, state, local, and 
private sector emergency response principals.
    Better planning at a regional level should not just consist of 
forward leaning coordination between the different levels of 
government, but an integrated partnership fostering clear communication 
through a defined point of contact for the Department of Homeland 
Security, the Department of Defense, and other states for joint 
contingency planning and response.
    When Hurricanes Katrina and Rita struck the Gulf Coast in 2005, the 
response was uncoordinated and unorganized. The White House issued its 
assessment of the response in The Federal Response to Hurricane 
Katrina: Lessons Learned, identifying critical flaws in national 
preparedness, including an absence of regional planning and 
coordination. According to the report, the Department of Homeland 
Security (DHS) did not maintain the needed personnel or resources in 
its regional offices. This led to reduced communications and 
understanding of on-sit needs, further delaying an effective response.
    The report recommended an increase in regional response 
capabilities. It specifically called on DHS to build its regional 
structures to integrate state and local strategies with response 
capabilities and to ``encourage and facilitate'' regional partnerships. 
In the Homeland Security Act of 2002, Congress mandated that DHS set up 
a regional structure. In an April 18, 2005 letter, four months prior to 
Hurricanes Katrina and Rita striking the Gulf Coast, I called on 
Secretary Chertoff to follow through with a regional framework in which 
Louisiana would have been equipped to facilitate a regional response.
    In a May 15, 2007 statement before the House Committee on Homeland 
Security, FEMA Administrator David Paulison recognized Louisiana's 
fragile state of recovery by indicating that FEMA is collaboratively 
assessing the state's capabilities and potential need for further 
federal assistance. By June 1, 2007, data were scheduled to have been 
compiled and reviewed for Louisiana to help local officials understand 
potential disaster response gaps in critical areas of debris removal, 
evacuation, sheltering, interim housing, healthcare facilities, 
commodity distribution, communications, and fuel. We are now four days 
into the hurricane season, and this analysis has not yet been 
completed.
    We need to build upon lessons learned and correct mistakes at all 
levels of government, ensuring that response authorities have the 
necessary resources and capabilities to provide a unified response. A 
DHS regional office structure should be implemented to strengthen state 
and local preparedness capabilities, facilitate regional cooperation 
among governments and the private sector, and plan and exercise with 
first responder entities that support regional disaster response.
    The regional structure should maximize the strengths of a region 
and work in partnership in identifying critical gaps in preparedness 
and infrastructure protection. Through a unified commend structure, 
proper training, and open communication, we all can be better prepared 
for the hurricane season.

    Mr. Rogers. Thank you.
    Mr. Carney. The Chair now recognizes the chairman of the 
Subcommittee on Emergency Communication Preparedness to 
response, the gentleman form Texas, Mr. Henry Cuellar, for any 
opening statement.
    Mr. Cuellar. Thank you, Mr. Chairman, and thank you for 
allowing us to be here. Again, I apologize, trying to get from 
Lorado's small airport to here, and I apologize, but for the 
sake of time I would like to go ahead and submit my written 
statement, the opening statement, so we can go ahead and 
continue and hear from our witnesses.
    So, again, we are very interested in finding out the status 
of the FEMA reforms and see how that's being done at a 
regional, so I will submit my written testimony.
    [The statement of Mr. Cuellar follows:]

 Prepared Opening Statement of the Honorable Henry Cuellar, Chairman, 
  Subcommittee on Emergency Communications, Preparedness, and Response

    <bullet> Good afternoon. First, I would like to welcome our panel. 
We're glad that you're here to discuss the status of FEMA reforms at 
the regional level.
    <bullet> Hurricane Katrina exposed significant flaws in our 
government's ability to prepare for, mitigate against, respond to, and 
recover from catastrophic events. It is our duty to ensure that this 
never happens again.
    <bullet> The Members of our Committee just finished touring damage 
along the Mississippi Gulf Coast and I think we can all agree there is 
much work left to be done to bring the coast back to where it was 
before Katrina.
    <bullet> Last October, the Post Katrina emergency Management Reform 
Act of 2006 was signed into law. The bill made substantial changes to 
FEMA and the Department of Homeland security, including making the 
Administrator of FEMA responsible for all phases of emergency 
management.
    <bullet> It created new leadership positions with clear 
requirements, new missions and restored some responsibilities that had 
been removed.
    <bullet> Additionally, it called for the enhancement of FEMA's 
regional office to allow more decisions during emergencies to be made 
by those on the ground and not in Washington.
    <bullet> Efficient, timely and effective implementation of the Act 
is critical to homeland security and is a high priority for our 
Committee.
    <bullet> While progress is being made by FEMA and the Department of 
Homeland Security in reforming their emergency management capabilities, 
enormous challenges still remain.
    <bullet> I am specifically interested in hearing from the witnesses 
whether they think we are making significant progress in the following 
areas: 1) evacuation planning; 2) mass care and housing; 3) emergency 
communications; and 4) assisting individuals with special needs.
    <bullet> I also want to discuss how FEMA and the Federal government 
can better address the unique challenges local first responders face 
when their community is devastated by a catastrophic disaster.
    <bullet> These brave men and women are forced to juggle their sense 
of duty with the need to ensure the safety of their families.
    <bullet> I believe we need to better acknowledge their sacrifices 
during future disasters and provide expedited assistance to them.
    <bullet> I want to thank the witnesses again for being here today 
and I look forward to their testimony.

    Mr. Carney. Thank you. The Chair now recognizes the Ranking 
Member on the Subcommittee of Emergency Communications 
Preparedness and Response, the gentleman from Pennsylvania Mr. 
Charles Dent for an opening statement.
    Mr. Dent. Thanks, Mr. Chairman, Chairman Carney, and 
Chairman Thompson, and also I want to thank our friend Gene 
Taylor too for all the hospitality that you've shown here and 
to all the people. I've only been here a couple of hours, it's 
my first trip to southern Mississippi, but I'm just so amazed 
by the spirit of the people I've met. I've only met a few, but 
the spirit is remarkable, and obviously there's a tremendous 
sense of pride about this community, and a certain toughness 
too that I think a lot of us would love to emulate.
    Just like Chairman Cuellar, I too will submit my opening 
remarks for the record so we can get on with the hearing and 
hear from our distinguished panel. Thank you, Mr. Chairman.

   Prepared Statement of the Honorable Charles Dent, Ranking Member, 
  Subcommittee on Emergency Communications, Preparedness, and Response

    I am pleased we're here today to discuss reforms to the Federal 
Emergency Management Agency's (FEMA) Regional offices.
    This hearing offers a good opportunity to discuss how State and 
local officials--working with the Federal government--are building a 
more robust capacity to prepare for and respond to natural disasters or 
terrorist attacks.
    This hearing will help review the progress that's been made in 
improving preparedness while also allowing us to assess the challenges 
that remain.
    Last year, this Committee was instrumental in the enactment of the 
Post-Katrina Emergency Management Reform Act of 2006. This legislation 
addresses the lessons learned from Hurricane Katrina and requires a 
number of structural and operational changes.
    For instance, the legislation seeks to ensure that a national 
system of preparedness is put in place and the Federal resources are 
more efficiently and effectivley deployed to assist State and local 
officials during catastrophic events like Hurricane Katrina.
    I look forward to discussing today how the reforms mandated by last 
year's legislation, as well as steps being taken at FEMA's initiative, 
are helping build and support strong partnerships for emergency 
preparedness and response.
    For instance, I understand that through the regional offices, FEMA 
is working with the 18 hurricane--impact States to conduct an analysis 
of specific vulnerabilities. These vulnerabilities are then being used 
to develop focused hurricane plans.
    Another effort underway is the development of a regional Gulf Coast 
Evacuation Plan. I am particularly interested in discussing this 
effort, including its coordination and leadership, and the agencies and 
organizations involved.
    And finally, I look forward to discussing with our witnesses the 
steps they are taking this year to better prepare their respective 
agencies and their local communities for this year's hurricane season.
    Thank you, Mr. Chairman.

    Mr. Carney. Thank you, Mr. Dent. The Chair now recognizes 
the Chairman of the full committee the gentleman from 
Mississippi Mr. Bennie Thompson for an opening statement.
    Mr. Thompson. Thank you very much, Chairman Carney, 
Chairman Cuellar, and other members. I welcome you here to Gene 
Taylor's District, but I also welcome you here to my home 
state.
    This morning the committee had an opportunity, as well as 
this afternoon, to see the devastation of what happened with 
Hurricane Katrina.
    There's no question that we have been adversely impacted. 
There's no question that FEMA was not up to the task when 
Katrina came, but we want to make sure if another Katrina type 
event would occur that with the changes that have gone on 
things will be better. Let's talk about a couple of things.
    First of all, are insurances companies going to treat 
people any better in this community if another hurricane comes, 
or are they going to be jacked around like they were before. If 
that's the case that's a problem.
    Secondly, whether or not FEMA has produced a written 
hurricane preparedness plan for this hurricane season. I came 
to ask specifically of our Regional Administrator if he has the 
plan. We had a hearing two weeks ago, we did not have the plan 
for the beginning of this hurricane season. I want to make sure 
that we have the plan. If not I want to know how can we fix 
anything without a written plan.
    In addition to that, the local first responders who have 
done a wonderful job, but I'm still hearing that there are a 
lot of problems that we're not getting cooperation with. For 
instance, there's an issue with formaldehyde in trailers and 
whether or not that is being investigated. Congressman Taylor's 
office has been intricately involved in that, as well as my 
office. I've gotten two answers to the same question. I will 
ask the formaldehyde question again today to see if I get a 
third answer, or at least will I get one of the two answers 
that I've gotten before.
    And lastly, let me compliment the committee chairpersons 
for coming here. The people in the audience have probably seen 
as many congress people as they need. I think what they're 
looking for now is how do we fix it to make sure that if 
something bad happens, will in fact the cavalry come on time, 
can we bring the resources, or whether or not the resources are 
available.
    We had a hearing, Mr. Carney week before last, we found out 
that our guard and reservist most of the equipment is not here. 
So, how are we going to get the equipment here if in fact we 
have a major problem.
    So there are a lot of issues associated with FEMA that I 
think are really important, and that's why as Chairman of the 
Committee I supported the effort of our two subcommittee 
chairpersons to come here, and I look forward to the witnesses 
testimony and look forward to the questions after. Thank you, 
Mr. Chairman.
    Mr. Carney. Thank you, Mr. Chairman. Other members of the 
subcommittees are reminded that under committee rules opening 
statements may be submitted for the record. I want to welcome 
the witnesses.
    Our first witness is Major Phil May, the FEMA Regional 
Director from Region 4, which covers Mississippi, Alabama, 
Georgia, Kentucky, North Carolina, South Carolina and 
Tennessee.
    Our second witness is Bruce Baughman, Director of Alabama 
Emergency Management Agency.
    Our third witness is Steve Delahousey, Vice President of 
Emergency Preparedness for American Medical Response.
    Our fourth witness is Brian Ruiz, President of the Saint 
Bernard Parish of the Firefighters Association.
    Mr. Carney. Without objection the witnesses full statements 
will be inserted in the record. I now ask each witness to 
summarize his statement for five minutes beginning with Major 
May.

   STATEMENT OF MAJOR PHIL MAY, REGION 4 ADMINISTRATOR, FEMA 
       REGIONAL DIRECTOR, DEPARTMENT OF HOMELAND SECURITY

    Major May. Thank you so much. Thank you, Chairman Carney 
and Chairman Thompson, Mr. Taylor. Thank you so much for 
inviting me to be here today.
    My name is Major Phil May and I am privileged to serve as 
the FEMA Regional Administrator for the Department of Homeland 
Security FEMA. I oversee FEMA's all hazards efforts to the 
southeast.
    I am pleased to appear before the committee today to 
discuss how Dave Paulison's vision for the new FEMA is being 
implemented at the regional level.
    As Regional Administrator my goal is to help build a new 
FEMA, one that will be a nation's preeminent emergency 
management preparedness organization by ensuring that FEMA 
Region 4 has a robust infrastructure, and all the appropriate 
resources in terms of people, operational systems, planning 
assessment tools, training, exercises and equipment.
    I know that Administrator Paulison has appeared before this 
committee and discussed how FEMA is strengthening it's regions 
through improved leadership and enhanced regional coordination. 
As Administrator Paulison told you at a hearing back on May 
15th, I am but one of 10 full-time administrators currently in 
place. This is the first time in recent memory that this has 
been achieved.
    FEMA learned a number of important lessons from Hurricane 
Katrina. One that I believe is most relevant for this hearing 
is the importance of close coordination with our partners 
before a disaster strikes every level of government. One of the 
lessons that Administrator Paulison has repeatedly emphasized 
is the breakdown in communications. Not just in a technical 
sense, but in the procedural sense. At every level of 
government officials were not talking to one another or not 
being heard.
    That is why one of the hallmarks of the new FEMA is 
improved regional coordination. FEMA's Regional Administrators 
have been charged to be more active in engaged states than 
we've ever been before. We're working to improve the regional 
communications performing GAP analysis with each state 
undertaking the multi state evacuation planning effort and 
supporting regional exercises.
    Over the past two years we've taken major steps to make 
sure the breakdown in communications that you saw in Katrina do 
not happen again. In 2006 we completed the upgrades and 
renovations that were needed to create a state of the art 
national response coordination center in Washington.
    In addition, we're complimenting assets assessments and 
upgrading our regional response coordination centers, which are 
regionally based multi agency coordination centers that perform 
complementary roles to the RCC in Washington.
    Operating in each of the 10 FEMA regions the RRCC provides 
situational awareness information, identifying and coordinating 
response recommendations, to perform capability analysis and 
report on the status of Federal disaster response operations.
    In addition, each regional administrator will have a 
regional emergency communications working group comprised of 
representatives from all levels of government, whose primary 
objective is to advise the regional leadership on matters 
pertaining to emergency communications.
    FEMA is employing the GAP Analysis Tool, which is serving 
as the basis for the better understanding of the 
vulnerabilities in a more consistent manner. This is an 
initiative that is a joint effort between the state and FEMA. 
The analysis consists of a series of structured discussions 
with local jurisdictions to better understand the potential 
disaster response asset gaps in critical areas of debris 
removal, evacuation, sheltering, interim housing, healthcare 
facilities, commodity distribution, communications and fuel. 
We're confident that through these structured discussions we 
will be better prepared.
    FEMA is helping Louisiana, Mississippi and Alabama develop 
a Gulf Coast Evacuation Plan that extends to adjacent states 
which potentially may host Gulf Coast evacuees. The purpose of 
a synchronized separate state evacuation plan is to create a 
more jointly organized effort. Teams are engaging with each 
state, identifying requirements and capabilities, and then will 
develop a plan to integrate shelter planning and transportation 
planning. The result will be a timelier better organized 
coordinated evacuation by those with their own transportation 
and for those who may need assistance to evacuate either by bus 
or air.
    To further strengthen our partnership FEMA is actively 
engaging state governments in joint exercises as we prepare for 
the 2007 hurricane season. During the first week of May FEMA 
tested the national incident management system and its response 
operations during an exercise called Ardent Sentry--Northern 
Edge, which depicted a Category 3 hurricane that struck 
Newport, Rhode Island.
    This is just the first of what we will do nationwide 
through these exercises testing a variety of scenarios, which 
will eventually take place in all the FEMA regions in close 
cooperation with all partners.
    In conclusion, I believe we've made real progress in 
strengthening FEMA's regions as we embark on the new journey 
and in a new direction, one that reflects a broader mission 
challenge, a wider set of partners, a greater depth of mission 
perspective.
    The new FEMA will require new skill sets, a greater 
investment in our people, new tools to ensure more effective 
emergency management at the national and regional level. And 
ultimately the new FEMA we're creating will keep the American 
people safer than they've ever been before, and make our 
services more accessible by having more regional staff and 
resources available in the field.
    Thank you for your time. I look forward to your questions.
    Mr. Carney. Thank you for your testimony, Mr. May.
    [The statement of Major May follows:]

          Prepared Statement for the Record of Major Phil May

    Chairman Thompson, Chairman Carney, Chairman Cuellar, and Members 
of the Committee, thank you for inviting me to appear before you today 
in Mississippi.
    My name is Major Phil May and I am privileged to serve as the 
Region IV Administrator for the Department of Homeland Security's 
Federal Emergency Management Agency (FEMA). In this role, I oversee 
FEMA's all hazards efforts in Alabama, Florida, Georgia, Kentucky, 
Mississippi, North Carolina, South Carolina, and Tennessee. As the 
primary FEMA representative and coordinator to a disaster prone region, 
I oversee the development, implementation and execution of all FEMA 
Region IV programs and initiatives, and have planning and operational 
oversight of special projects related to building a strong, capable, 
and responsive Region. My goal is to help Administrator Paulison build 
a new FEMA that will be the Nation's preeminent emergency management 
and preparedness organization by ensuring FEMA Region IV has a robust 
infrastructure and all the appropriate resources, in terms of people, 
operational systems, planning and assessment tools, training, 
exercises, and equipment. In addition, I work to foster the necessary 
relationships before disasters strike across the full spectrum of 
emergency management on all levels of government, the private sector, 
nonprofit, and non-governmental entities.
    In keeping with the guiding principle of the new FEMA, we are 
leaning further forward to deliver more effective disaster assistance 
to individuals and communities impacted by a disaster. We call it 
``engaged partnership.'' That is the FEMA you saw in the tornadoes that 
struck Florida in January and Georgia and Alabama in March tornadoes, 
as well as the Nor'easter that flooded areas of the New England States 
and last month in Kansas where the community of Greensburg was 
devastated by a tornado.
    In those disasters you witnessed a FEMA that became an engaged 
partner with the State within minutes of the disaster, rapidly 
deploying operational and technical experts to the disaster site. You 
also witnessed a proactive FEMA that led the charge by ensuring an 
effective Unified Command with other Federal agencies, and State and 
local officials, working together to help a devastated community.
    These actions were taken by a well-led, motivated, and professional 
FEMA workforce that has embraced and enhanced the vision and reality of 
a new FEMA.
    As many of you are aware, on May 22nd, the U.S. National Oceanic 
and Atmospheric Administration (NOAA) Climate Prediction Center 
released its 2007 Atlantic Hurricane Season Outlook. NOAA scientists 
projected a 75 percent chance that the Atlantic hurricane season will 
be above normal. This prediction includes 13 to 17 named storms with 7 
to 10 becoming hurricanes, of which 3 to 5 could become major 
hurricanes of Category 3 strength or higher. NOAA's prediction is in 
line with the Colorado State University prediction, which predicted 17 
named storms, including 9 hurricanes, of which 5 are expected to be 
major hurricanes.
    Accordingly, FEMA is leaning forward as we prepare for an active 
2007 hurricane season. Engaging our tribal, local, State and Federal 
partners in more thorough and informed hurricane planning; building 
FEMA's operational capabilities for a more effective response and 
recovery; and amplifying our stance on hurricane readiness will put 
FEMA in good standing to meet whatever challenges unfold.

BACKGROUND
    FEMA has learned much from the 2005 hurricane season and the damage 
that was inflicted on the communities and families of the Gulf Coast. 
Hurricanes Katrina and Rita have served as a catalyst for major changes 
in federal policy, approaches, and the relationship between DHS-FEMA, 
the private sector and at all levels of government.
    The Department appreciates the tools given to us in the Post-
Katrina Emergency Management Reform Act (PKEMRA). PKEMRA codifies and 
expands FEMA's regional office structure and strengthens our all-
hazards operational framework and coordination capabilities. The ten 
Regional Administrators provided for in the Act report directly to the 
FEMA Administrator. The statute also provides for the creation of 
Regional Advisory Councils and new regional incident management 
assistance teams.
    The Regional Advisory Councils will provide valuable advice and 
recommendations to each
    Regional Administrator on regional emergency management issues and 
identify weaknesses or deficiencies in preparedness, protection, 
operations, assistance, and mitigation for State, local and tribal 
governments based on their specialized knowledge of the region. We hope 
to make selections for the Regional Advisory Councils later this year. 
Additionally, the Act calls for the establishment of regional emergency 
communications working groups, which would report to Regional 
Administrators and advise them of emergency communications concerns and 
issues. This new structure will help to facilitate and further enhance 
our national and regional based evacuation and catastrophic planning 
efforts.

STRONG REGIONAL LEADERSHIP
    As Administrator Paulison previously testified before your 
Committee, FEMA has staffed each Region with an Administrator who 
possesses an extensive background in emergency management. 
Collectively, all ten Regional Administrators possess over 300 years of 
experience in preparing for and responding to disasters. Three of the 
ten Administrators, including me, are career senior executives. Having 
career staff in three of the Regions will ensure continuity of best-
practices from administration to administration. I am pleased to report 
that all 10 Regional Administrators are on board and prepared to meet 
the needs of their respective regions.

ENHANCED REGIONAL COORDINATION
Regional Advisory Council
    FEMA has worked diligently to fine tune the appropriate framework 
to establish the Regional Advisory Councils. The charter for the 
councils is presently under final review by the FEMA Administrator. 
These councils will advise the Regional Administrators on all aspects 
of emergency management and will comprise representatives from State, 
territorial, local and tribal governments. The councils will also 
identify any geographic, demographic, or other characteristics specific 
to any State, territorial, local, or tribal government within the 
Region that might make preparedness, protection, response, or 
mitigation more challenging. Finally, the councils will advise the 
Regional Administrators on any weaknesses or deficiencies in 
preparedness, protection, response, recovery, and mitigation within the 
regional area of responsibility that should be addressed. These 
Regional Advisory Councils will significantly improve communication 
between the multiple levels of government and give Regional 
Administrators the critical insights to address the needs of the 
communities in which they serve.

Defense Coordinating Officers
    FEMA and the Department of Defense (DOD) have taken major strides 
to ensure that federal and military response is coordinated and 
seamless, especially at the regional level. DOD has assigned Regional 
Defense Coordinating Officers (DCO), supported by Defense Coordinating 
Elements (DCE), in each of FEMA's Regions to ensure military 
coordination at the Regional level. Currently, all 10 FEMA Regions are 
staffed by a DCO and support DCE.

Regional Communications
    Among the lessons learned after the 2005 hurricane season, none has 
been taken more seriously than the breakdown of interagency and intra-
agency communications. Communication between the Federal government and 
our partners at the State and local levels is an integral part of 
emergency management. Over the past two years we have taken major steps 
to make sure this breakdown does not happen again.
    In 2006, we completed the upgrades and renovations needed to create 
a state of the art National Response Coordination Center (NRCC). The 
NRCC is a central location where Federal agencies meet during a 
disaster to coordinate national response under the National Response 
Plan (NRP). In addition, we are completing assessments and upgrading 
our Regional Response Coordination Centers (RRCC), which are the 
regionally-based multi-agency coordination centers that perform a 
complementary role to the NRCC. Operating in each of the ten FEMA 
Regions, the RRCC provides situational awareness information, 
identifies and coordinates response requirements, performs capabilities 
analysis, and reports on the status of Federal disaster response 
operations.
    During Katrina, we had a failure in our communications with people 
in the field--key element which needed for us to have situational 
awareness of what was happening on the ground--coupled with substandard 
coordination with our partners across the Federal government. Both the 
NRCC and RRCC have a seat at the table for each of the 26 agencies that 
have roles under the NRP, as well as secure links to key offices around 
the country and the capability to bring State and local officials into 
the conversation.
    One of the key lessons learned from Hurricanes Katrina and Rita was 
the need for a state-of-theart national warning system. In 2006, FEMA's 
Office of National Security Coordination (now the Office of National 
Continuity Programs) focused on the multi-year task of building an 
Integrated Public Alert and Warning System (IPAWS).Last year, we 
successfully completed the Digital Emergency Alert System pilot and 
worked with the Association of Public Television Stations deploying the 
system to all PBS affiliates around the country. In addition, FEMA 
helped in establishing two new Emergency Alert System Primary Entry 
Point radio stations--one located here in Mississippi and the other in 
Alabama--and 15 hurricane region stations were provided with satellite 
links to improve their communications during disasters. When this 
project is completed over the next five years, it will greatly enhance 
our nation's emergency communications capabilities.
    Administrator Paulison has made communications and outreach to 
tribal, State and local officials a high priority for the Regional 
Administrators. Our expanded role in the regions will help us to build 
strong ties on the ground before disasters strike, so that we are not 
exchanging business cards in the emergency operations center.
    DHS has provided true leadership for FEMA to lay the groundwork to 
build a more robust national communication capability. In January 2007, 
DHS issued the Tactical Interoperable Communication Scorecards. These 
scorecards assessed the maturity of tactical interoperable 
communications capabilities in 75 urban/metropolitan areas. They were 
developed by subject matter expert panels that reviewed documentation 
on current communications plans, exercises, and a self-assessment to 
arrive at consensus findings and recommendations for each region on how 
to best improve that region's communications capabilities.
    Moreover, by November 1, 2007, each State and Territory must submit 
a Statewide Communication Interoperability Plan to DHS. The goal of 
this plan is to provide a strategic vision for how each State and 
Territory will achieve and further invest in statewide interoperability 
and communications.
    In addition, DHS, in conjunction with the Department of Commerce 
National Telecommunications and Information Administration in 
consultation with DHS will make nearly $1 billion available to states 
and localities later this fiscal year through a Public Safety 
Interoperable Communications Grant Program, authorized by the Deficit 
Reduction Act of 2005 and amended by the Call Home Act of 2006. Through 
FEMA's disaster relief fund, an additional $1.3 million has been made 
available for Mississippi for emergency communications equipment in 
Pike, Pearl River, Stone, Hancock, Harrison, and Jackson Counties. The 
money will be spent to install interoperability equipment, including 
repeaters on six South Mississippi communications towers.
    Finally, each Regional Administrator has been provided a workgroup 
comprising representatives from all levels of government, whose primary 
objective is to advise the regional leadership on matters pertaining to 
emergency communications. The Regional Emergency Communications Working 
Group, referred to as an RECC Working Group reports to the Regional 
Administrator and advises him or her on all aspects of emergency 
communications. The Regional Managers, in turn, will share this advice 
on emergency communications with State and Local emergency managers 
within the Region.

HURRICANE PREPAREDNESS
    I know that Administrator Paulison has briefed you on FEMA's 
readiness for the Hurricane season from the National perspective; 
however, please allow me to expand upon a few of its components and 
talk briefly about what we are doing here in Region IV to prepare.

Enhanced Response Teams
    To further enhance disaster response capabilities and ultimately 
provide for the three national-level response teams and regional-level 
emergency response ``strike'' teams required in the Post-Katrina Act, 
FEMA is developing the next generation of rapidly deployable 
interagency emergency response teams, tentatively identified as 
Incident Management Assistance Teams, or ``IMATs.'' IMATs are designed 
to provide a forward Federal presence to facilitate managing the 
national response to catastrophic incidents. The primary mission of a 
FEMA IMAT will be to rapidly deploy to an incident or incident-
threatened venue, provide leadership in the identification and 
provision of Federal assistance, and coordinate and integrate inter-
jurisdictional response in support of the affected State(s) or U.S. 
Territory(s). The IMATs will support efforts to meet the emergent needs 
of State and local jurisdictions; possess the capability to provide 
initial situational awareness for Federal decision-makers; and support 
the initial establishment of a unified command.
    The teams are still being designed and decisions on team assets, 
equipment, and expected capabilities have not yet been finalized. When 
not deployed, the teams will train with Federal partners and provide a 
training capability to elevate state and local emergency management 
capabilities. The teams will also engage in consistent and coordinated 
operational planning and relationship-building with State, local, 
tribal, and other stakeholders.
    Initially, our goal is to establish interim Regional and National 
teams utilizing existing personnel within FEMA. The teams will subsume 
the existing mission and capabilities of the Federal Incident Response 
Support Teams (or ``FIRSTs'') and Emergency Response Teams (or 
``ERTs'').
    The mission and capabilities will incorporate similar leadership, 
emergency management doctrine, and operational communications concepts. 
The national-level and regional-level teams will eventually be staffed 
with a core of full-time employees, unlike the ERTs, which are staffed 
on a collateral duty basis; will be fully compliant with NIMS and ICS; 
and will train and exercise as a unit.

Gap Analysis
    FEMA is employing a Gap Analysis Tool, which is serving as the 
basis for better understanding vulnerabilities in a more consistent 
manner. The Gap Analysis Tool was developed in coordination with the 
State of New York Emergency Management Office and the New York City 
Office of Emergency Management, and has been implemented to provide 
FEMA and its State and local partners in the hurricane prone regions of 
the country with a snapshot of asset gaps at the local, State, and 
National levels.
    This initiative is a joint effort between State Emergency 
Management representatives and FEMA Regional representatives. The 
analysis consists of a series of structured discussions with local 
jurisdictions to better understand potential disaster response asset 
gaps in the critical areas of debris removal, evacuation, sheltering, 
interim housing, healthcare facilities, commodity distribution, 
communications, and fuel. The discussions provide an opportunity for 
local jurisdictions to ask specific questions of Federal and State 
officials and identify issues of critical concern to help long-term 
preparedness programs. We are confident that through these structured 
discussions, we will all be better prepared.
    Specific gaps are determined by identifying a series of 
requirements in each critical area within each location and then 
subtracting the corresponding capabilities for meeting those 
requirements for each location. Although our initial use of this 
concept is being applied for the upcoming hurricane season, this 
process is applicable to all hazards and the goal is to build upon 
lessons learned and apply the tool to all locations for all hazards on 
an ongoing basis.
    The new FEMA has made a conscious effort to focus broadly on all 18 
hurricane-prone States, the Commonwealth of Puerto Rico, and 
Territories to prepare for the 2007 Hurricane Season. Today, FEMA is 
working closely with each of the 18 state emergency management 
communities in hurricane prone states using a consistent set of 
measures and tools to evaluate strengths and vulnerabilities. We have 
people on the ground at this moment conducting these analyses with 
state emergency managers.
    Modeling is also an essential element of FEMA's planning efforts 
for different circumstances and data sets. FEMA is coordinating with 
the DHS Science and Technology (S&T) Directorate to adapt modeling 
tools for the specific circumstances of large metropolitan areas. As 
the use of the Hurricane Gap Analysis Tool matures, FEMA plans to 
incorporate additional modeling capabilities to validate the data 
received and forecast needs based on different variables.

Evacuation Planning Initiative and Coordination
    FEMA is helping Louisiana, Mississippi, and Alabama develop a Gulf 
Coast Evacuation Plan that extends to adjacent States which host Gulf 
Coast evacuees. The purpose is to synchronize separate State evacuation 
plans to create a more jointly organized effort. Teams are engaging 
with each State, identifying requirements and capabilities, and then 
will develop a plan that integrates shelter planning with 
transportation planning. The result will be a timelier, better 
organized and coordinated evacuation by those with their own 
transportation and those who need assistance to evacuate by bus or air.

Catastrophic Disaster Planning Initiatives
    Using the Catastrophic Planning funding appropriated in fiscal year 
06, Region IV, along with our sister Regions of V, VI, and VII, is 
developing scenario-driven workshops with each of the eight New Madrid 
Seismic Zone (NMSZ) States. The Workshop Execution Plan uses a bottom-
up approach, where the states will take the lead and FEMA will provide 
guidance. The states clearly have taken ownership and are committed to 
working with each other, the FEMA regional offices, other Federal 
agencies, the private sector, and other stakeholders to create, as one 
state director noted, ``the most comprehensive catastrophic response 
and recovery plan in our nation's history.''
    Over the next 12 months each state will conduct its own state-wide 
catastrophic planning workshop, tailored for its individual 
catastrophic planning goals and objectives, using a template provided 
by Innovative Emergency Management (IEM), our contracting firm. The 
Mississippi Emergency Management Planning Staff and the full-time FEMA-
funded contractor are collaborating on developing a Workshop Execution 
Plan which will culminate in a Federal, State and local exercise during 
the second quarter of fiscal year 2008.
    We are also working with 13 southeastern Louisiana parishes 
(including the City of New Orleans), which were selected as the initial 
geographic focus area for FEMA's ``Catastrophic Planning'' initiative, 
because of their vulnerability to hurricane disasters. Substantial 
planning activity for the 2007 Hurricane Season continues with the 
State of Louisiana and its parishes.
    In addition, FEMA is using scenario-driven workshops to enhance the 
State of Florida's capability to respond to a Category 5 Hurricane 
making landfall in southern Florida. This is a two-phase project. Phase 
one focuses on developing regional response and recovery annexes, 
including evacuation planning, for the counties and communities 
surrounding Lake Okeechobee (in the event of a Herbert Hoover Dike 
failure) and will soon be completed. Phase two will address the effects 
of a Category 5 hurricane striking south Florida. The end product for 
phase two will be to standardize comprehensive catastrophic Category 5 
hurricane disaster functional response and recovery plans for the State 
of Florida and responding Federal agencies. Phase two will be completed 
by September 30, 2008. These plans will also be used as planning 
templates for other large urban areas.

Regional Exercises and Training
    To further strengthen our partnerships, FEMA is actively engaged 
with State governments in joint exercises to prepare for the 2007 
Hurricane Season. During the first week in May, FEMA tested the 
national incident management system (NIMS) and its response operations 
during an exercise called Ardent Sentry--Northern Edge, which depicted 
a Category 3 hurricane that struck Newport, R.I.

CONCLUSION
    I believe we have made real progress in strengthening FEMA's 
Regions as we embark on a new journey and in a new direction; one that 
reflects a broader mission challenge, a wider set of partners, and a 
greater depth of mission perspective. The new FEMA will require new 
skills, a greater investment in our people, and new tools to ensure 
more effective emergency management at the national and regional level. 
Ultimately, the new FEMA we are creating will keep the American people 
safer than they were before and make our services more accessible by 
having more Regional staff and resources available in the field.
    Thank you for your time and I look forward to answering your 
questions.

    Mr. Carney. I now recognize Mr. Baughman. Five minutes.

     STATEMENT BRUCE BAUGHMAN, DIRECTOR, ALABAMA EMERGENCY 
                       MANAGEMENT AGENCY

    Mr. Baughman. Thank you, Mr. Chairman. Good morning, I'm 
Bruce Baughman Director of the Alabama Emergency Management 
Agency. I have got about 36 years experience in emergency 
management. At the state level, four at the State of 
Mississippi, four for the State of Alabama, and 28 years with 
FEMA.
    I'm here to talk about FEMA, how FEMA's worked with the 
State of Alabama to enhance our capabilities to respond to 
disasters, both in our recent tornadoes and in preparation for 
hurricanes.
    Recently after the passage of the first Katrina Emergency 
Reform Act FEMA launched what they called the new FEMA. They 
recommitted themselves to establishing stronger regions and 
more customer focused organization with regards to working with 
the states. I feel that they've done that. In a recent 
hurricane after March the 1st a tornado struck at 12:30, and at 
3:00 I was on the phone with Director May and he was asking 
what type of assistance we need.
    Within hours the Transition Recovery Director from the 
Alabama Transition Recovery Office was in my office where we 
coordinated our activities. The next day the Federal 
Coordinating Officer was there, and the next day we had 
Presidential Disaster Declaration. Couldn't have asked for any 
better response than that.
    So, to us the new FEMA slogan it's just a slogan it's an 
actual commitment to the people of our state.
    In preparation for hurricane season we've been working very 
closely with FEMA region and FEMA headquarters to preposition 
those commodities that we feel we're going to need in front of 
a hurricane, water, ice, cots, pillows, blankets, hygiene kits, 
tarps and personal comfort kits. We've worked with FEMA to 
establish what we project our first 72-hour consumption rate is 
for those commodities. Those have been either pre-positioned or 
are in the process of being pre-positioned in our state.
    We're currently in the process of negotiating with FEMA for 
a 100,000 square foot warehouse to be located in Montgomery to 
store these items.
    More importantly is exercising. On April the 16th Governor 
Bob Riley, myself and other members of the Cabinet, along with 
members of private industries in our counties, and FEMA and 
their counterparts met in Montgomery to walk through a disaster 
scenario.
    In that scenario we established our operation priorities, 
what we would be looking for from the Federal Government, and 
basically turned over that list of requirements that we would 
need in a hurricane to them, which is not a large list in our 
particular case because we feel that we have done the planning 
required to get ourselves prepared for a major hurricane. That 
doesn't mean we've addressed everything or we would not need 
Federal financial assistance.
    Other things that we've done is we're working as Phil 
mentioned in conjunction with FEMA headquarters and regions 
with a gulf state planning initiative. This planning initiative 
was designed to identify gaps that we might have in our 
evacuation plans and to look at ways we can enhance that. One 
of the things that we're doing right now in the State of 
Alabama since we have excess shelter capacity is to provide 
additional shelter space to the State of Louisiana.
    On May 17th, as I mentioned, we did in fact do a lot of 
exercises. We activated our emergency operations center, 
brought all the state and Federal responders together and 
walked through a disaster scenario so that people actually 
engaged in a disaster operation and had some hands-on 
experience in working together.
    What we do in responding to disaster is we choreograph it, 
so at 96 hours out we activate our emergency operations center, 
we are on the phone twice a day with FEMA and the hurricane 
center and with the adjacent states looking at what their 
requirements are. We begin a volunteer evacuation at that time. 
We also understand the importance that the media plays in this 
in getting the word out to the public, so twice a day we are 
holding briefings with our Federal counterparts and with the 
various state agencies.
    We start opening shelters at 96 hours. We're making sure 
that the shelters have emergency power. If we cannot provide 
it, FEMA's working with us to provide that emergency power.
    We also have used Homeland Security dollars to create the 
Alabama Mutual Aid System. That system has 54 search and rescue 
teams, emergency medical teams and law enforcement teams to 
communities response. 5,200 members of that system responded to 
both Louisiana and Mississippi during Hurricane Katrina. These 
teams can help in search and rescue, traffic control, debris 
movement and other emergency response issues.
    At 72 hours out we have FEMA emergency response teams in 
our emergency operations center. We are doing a unified command 
at that time so that they are looking at our operational 
priorities and filling in the requirements that we're relying 
on for additional supplemental assistance.
    At 48 hours out the Governor issues an emergency 
proclamation, FEMA's hopefully moving in additional pre-
positioned commodities. We are doing a mandatory evacuation at 
that time in Mobile and Baldwin Counties, and at that time the 
Governor would ask for an emergency declaration from the 
President.
    And at 24 hours out our evacuations are complete. Over 130 
shelters should have been opened housing more than 44,000 
evacuees.
    Let me in conclusion, I want to make some specific 
recommendations. One, I think that FEMA's regional role in 
preparedness needs to be strengthened. That's one of the things 
we tried to work on in the FEMA format. I think that needs to 
happen. They need to work closer with the state day in and day 
out. Prior to this the only time we saw FEMA was when a 
disaster occurred. Now we're working with Phil May and his 
staff day in and day out to make sure our emergency 
preparedness requirements are met.
    In addition to that, the regions need additional staff. 
Right now the regions are woefully understaffed to carry out 
the missions of preparedness response and recovery. The 
regional staff needs to be bumped up.
    And in addition to that additional funds need to be 
provided for training. But if we're ever going to get any 
better and FEMA is going to be able to carry out it's mission, 
additionally states have got to have additional dollars to 
prepare themselves because they are the first line responders 
along with local government in any disasters out there. Thank 
you, Mr. Chairman.
    Mr. Carney. I thank you, Mr. Baughman.
    [The statement of Mr. Baughman follows:]

                  Prepared Statement of Bruce Baughman

    Good Morning Chairman Thompson and Ranking Member King. I am the
    Director of the Alabama Emergency Management Agency, I have over 36 
years experience in Emergency Management over four in my current job, 
twenty-nine with FEMA and the federal government and four with the 
Mississippi Emergency Management Agency. I am here to talk to you today 
about how FEMA has worked with Alabama during both recent declared 
disasters and in the preparation of the upcoming hurricane season. 
Earlier this year as a result of the Post Katrina Emergency Management 
Reform Act FEMA launched what they are calling ``new'' FEMA, and they 
re-committed to establishing stronger regions and a more customer-
focused organization in regards to working with states impacted by 
disasters. I feel they have upheld their commitment. My staff and the 
people of Alabama saw it first hand immediately following the March 1st 
tornadoes. The first tornado struck at 12:30pm and by 3:00pm that same 
day, FEMA Region IV Administrator Phil May was on the phone asking what 
type assistance we might need. Administrator May has a Southern Linc 
radio provided to him by our office to make sure we are in constant 
contact, and not just during times of disasters, but on a day to day 
basis. Transitional Recovery Officer Robert Ives was also dispatched to 
our EOC just hours after the storm devastated Alabama. I also worked 
with Alabama's Federal Coordinating Officer, Gracia Szczech in the 
recovery phase, and she and her staff vowed to stay in our state until 
the survivors of the devastating storm got the assistance they needed. 
FEMA's quick response proves the term ``new'' FEMA isn't a slogan, but 
an actual commitment to the people in our state.

Alabama/ FEMA Preparation for Hurricane Season
    Based on Colorado State University hurricane predictions there is a 
74% chance a hurricane will make landfall on the U.S coastline and a 
49% chance a major hurricane will make landfall on the Gulf Coast. 
Governor Riley asked FEMA Administrator David Paulison to preposition 
much needed emergency commodities in our state such as water, food, 
ice, cots, blankets, pillows, hygiene kits, tarps and personal comfort 
kits. We worked with FEMA to establish our projected 72 hour 
consumption rate for the above mentioned commodities. Not only did FEMA 
listen to our request, but they responded by making sure we have what 
we need in Alabama, or either committing to getting it here in a timely 
manner, as it's needed. FEMA is currently in the process of negotiating 
a 100,000sq foot warehouse in Montgomery that will store some of the 
pre-positioned items. On April 16, 2007, Alabama Governor Bob Riley, 
his cabinet members and private industry representatives participated 
in Governor's annual Hurricane Workshop. FEMA Region IV Administrator 
Phil May along with predesignated EMA response and recovery staff also 
attended to see what the state has established as our operational 
priorities for a landfall event. This was our opportunity to discuss 
the operational requirements of a major hurricane prior to and after it 
makes landfall, as well as the preparation that takes place throughout 
the year at our agency. We are also working with FEMA Region IV on 
identifying gaps in our evacuation plans. We have had a series of 
meetings between FEMA, state, and local agencies to pre-identify what 
the locals will need from the state and in turn what the state will in 
need in the way of support from FEMA to successfully evacuate the 
citizens of the coast of Alabama and other impacted states. We are also 
working in conjunction with FEMA Region IV to identify other 
operational gaps that might exist such as communications and emergency 
power. We are a participating state in FEMA's Gulf Coast Mass 
Evacuation planning initative. This is an initiative to better 
coordinate a mass multi state evacuation. Alabama continues to work 
closely with FEMA Region IV in preparing for the 2007 hurricane season.

AEMA Preparedness and Hurricane Timeline
    On May 17, 2007 we conducted a working level Hurricane exercise in 
our EOC, where we bring all the state agency representatives and run 
through emergency actions related to a major hurricane. This simulated 
event gives us an opportunity to make sure every agency is aware of 
their role during and prior to a disaster. My agency also conducts 
regional exercises with our coastal region to ensure that preparedness 
measures are being met. The state has pre-determined operational 
priorities for both post and pre landfall. These priorities are also 
shared with FEMA. We are conducting local elected official's briefings 
throughout the state to ensure proper interface with local governments 
during emergencies.
    Our current procedures and priorities begin at 96 hours out from a 
potentially dangerous storm in the Gulf, the EOC activates at level 3. 
At that time we are activating resource contracts for food, water and 
ice. Also at this activation level we are beginning our twice-daily 
situation updates. FEMA, the National Hurricane Center and the states 
are updating one another on the latest trace of the storm and what 
actions are being taken. At this time the counties begin voluntary 
evacuation. We understand the important role the media plays in 
conveying what's going on to the public, so at this time we hold twice 
daily media briefings. We start opening shelters and making sure there 
are generators at those facilities. The Alabama Mutual Aid System is 
now on alert, and this system consists of 54 teams throughout the 
state. About 5,200 members of the mutual aid system responded to 
Louisiana, Mississippi and the coast of Alabama during the aftermath of 
Hurricane Katrina. Recently we dispatched four of these teams and 350 
state personnel to assist the stricken communities following our recent 
outbreak of tornadoes. They assisted in search and rescue, traffic 
control, debris removal and other emergency measures.
    At 72 hours out, the EOC is activated at level 2 and we receive our 
FEMA Emergency Response Team, and establish a unified command and begin 
joint action planning. County liaisons are deployed and back-up 
communications are on stand-by and ready to be deployed as needed.
    At 48 hours from the hurricanes' anticipated landfall, the EOC is 
fully activated and staffed. The Governor will issue an Emergency 
Proclamation, pre-positioned commodities are also being moved, and our 
mandatory evacuation plan is implemented, which includes four zones in 
Mobile County and Baldwin Counties. 24 hours from land fall the 
evacuation should be complete. More than 130 shelters have been 
identified with a capacity of more than 44, 000. That number includes 
23 two-year community colleges identified throughout the state.

The Conclusion
    In closing, I understand the Department of Homeland Security and 
FEMA reorganized as a way to better serve the communities not only in 
Alabama, but across the United States, but I feel that FEMA must 
strengthen its regions and equip them with the tools to do the job. 
What I have found in all my years in emergency management, it's not so 
much how you organize but, it's the people you have in your 
organization, and FEMA has good people; and that makes the difference 
if you are successful in the time of a disaster.

    Mr. Carney. I now recognize Mr. Delahousey for 5 minutes.

   STATEMENT OF STEVEN DELAHOUSEY, VICE PRESIDENT, EMERGENCY 
     PREPAREDNESS FOR AMERICAN MEDICAL SERVICES CORPORATION

    Mr. Delahousey. Thank you. Thank you for inviting me to 
testify at this hearing. My name is Steve Delahousey, I'm a 
registered nurse and registered paramedic. I'm currently 
National Vice President of Emergency Preparedness or Emergency 
Medical Services Corporation, which through it's operating 
subsidiaries, American Medical Response and EmCare serves 
approximately 10 million patients each year. AMR is a leading 
provider of emergency and nonemergency ambulance service in the 
Nation with operations in 36 states and the District of 
Columbia.
    EmCare is a leading provider of outsourced emergency 
department staffing and related management services contracting 
with more than 350 hospitals nationwide.
    My testimony today to primarily related to my experiences 
and observations as the AMR Medical Disaster Officer during 
Hurricane Katrina.
    Today's topic, Empowering State and Local Officials Through 
Enhanced FEMA Regional Offices, is timely and appropriate given 
the prediction for a very active 1907 hurricane season.
    In August of 2005, prior to Katrina, there were 
approximately 5,000 patients in healthcare facilities, and 
another 45,000 noninstitutionalized individuals with severe 
disabilities in the three Mississippi coastal counties. Many of 
them required assistance with evacuation. Katrina made landfall 
in Mississippi on Monday, August 29th. We began requesting 
state and Federal assistance for medical evacuation two days 
prior to landfall. State agencies responded promptly, but their 
limited resources were quickly depleted. There was no Federal 
ambulance evacuation plan in place at the time. We therefore 
had to rely upon our internal resources within the private 
sector. Private ambulances from nearby states were deployed to 
south Mississippi to complete the evacuation prior to Katrina's 
landfall.
    We are pleased to say that there were no deaths or no 
significant untoward effects that resulted from this massive 
medical evacuation effort in Mississippi.
    26 days after Katrina wreaked havoc in Mississippi, 
Louisiana and Alabama hurricane Rita set it's sights on Texas 
and Louisiana. This time the Federal Government was ready. FEMA 
authorized hundreds of Federal contracted ambulances to be 
deployed to Houston, Texas to assist with the medical 
evacuation there.
    We are thankful to congress for passing the post Katrina 
Emergency Management Reform Act, which reorganizes the 
Department of Homeland Security by reconfiguring FEMA and 
including national preparedness functions. We agree with FEMA's 
Administrator's policies when he said that the new FEMA 
reflects the expanded scope of FEMA's responsibility that 
supports a more nimble, flexible use of resources. It will 
deliver enhanced capabilities to partners at the state and 
local level with emergency management and preparedness 
organizations and to engage the capabilities of the private 
sector.
    The post Katrina Emergency Management Reform Act expands 
FEMA's regional office structure. It provides for the creation 
of Regional Advisory Councils to give advice and 
recommendations to the Regional Administrators on emergency 
management issues. We totally agree with Secretary Chertoff 
when he stated, ``one of the greatest lessons from Katrina that 
we learned is you just can't show up and introduce yourself 
when the emergency is underway.''
    Mississippi is often recognized for its efficient post 
Katrina recovery efforts. There are many reasons for this 
success, but I believe these to be the most significant:
    We utilized a unified command structure here in 
Mississippi.
    We had strong leadership from the Governor's office.
    We had a competent state emergency management agency.
    Some of FEMA's best response personnel were sent to 
Mississippi.
    And lastly, the resilience of Mississippians.
    I have witnessed firsthand what a positive difference 
experienced leaders can make during disasters. FEMA appointed 
James Russo as the Federal Coordinating Officer for Mississippi 
post Katrina to work hand in hand with the Governor and senior 
leaders at the Mississippi Emergency Management Agency. 
Hopefully, empowering FEMA regional offices will allow 
experienced field commanders like Mr. Russo to carry out their 
job even more efficiently.
    The creation of the Office of Health Affairs, led by Chief 
Medical Officer Dr. Jeff Runge, has also had a positive impact 
and we look forward to working with Dr. Runge and his team of 
experts.
    Finally, I'd like to comment on the need for additional DHS 
funding for EMS providers. Along with fire and police, EMS 
providers are one of three primary first responder groups. The 
vast majority of EMS providers, however, lack sufficient access 
to Federal funding and are therefore under equipped and need 
additional training to effectively respond to a terrorist 
attack or natural disaster.
    Chairman Thompson, you may recall in 2003 Congress asked 
the DHS Office of Domestic Preparedness to clarify whether 
ambulance providers are eligible for grant funds awarded the 
states. ODP provided a written opinion which states, ``in 
recognition that in many communities private EMS providers are 
the sole providers of EMS, ODP determined that both public and 
private EMS providers are eligible for funding under the State 
Homeland Security Grant Program as long as it is consistent 
with the state's Homeland Security strategy, and the private 
EMS providers are components of the local or state response 
plans.''
    Despite this opinion, in fiscal year 04 and fiscal year 05, 
DHS reported that less than 4 percent of first responder grant 
money was awarded to EMS providers. EMS providers, however, 
represent a full one third of the first responder work force, 
and are the primary first responders for medical assistance as 
evidenced by the response during Hurricane Katrina.
    For the past two years Congress has included conference 
report language to Homeland Security Appropriations Bills 
noting their concern over the lack of funding for EMS 
providers. You recommended a minimum of 10 percent of Homeland 
Security funding for EMS providers in the House Report for both 
of those years. We urge you to act on those recommendations.
    It would also appear that perhaps an amendment to the 
Stafford Act is needed to resolve EMS funding inequities. 
Currently the Stafford Act makes no mention of funding 
eligibility for EMS providers or ambulance services. This 
explicit omission creates confusion to Federal, state and local 
government officials resulting in disparity for EMS providers 
to receive DHS or FEMA grant funds and reimbursement for 
services rendered during times of disasters. Your assistance in 
passing a simple amendment to the Stafford Act recognizing EMS 
as emergency work, and EMS providers as public safety personnel 
along with fire and police is requested. Thank you for your 
time and I look forward to answering your questions.
    Mr. Carney. Thank you, Mr. Delahousey.
    [The statement of Mr. Delahousey follows:]

       Prepared Statement for the Record of Steven J. Delahousey

    Chairman Thompson, Chairman Cuellar, Chairman Carney and Members of 
the Subcommittees:
    Thank you for inviting me to testify at this hearing. My name is 
Steven J. Delahousey. I am a registered nurse and a registered 
paramedic. I am currently the National Vice President of Emergency 
Preparedness for Emergency Medical Services Corporation (EMSC) which 
through its operating subsidiaries, American Medical Response, Inc. 
(AMR) and EmCare, Inc. (EmCare), serves approximately ten million 
patients each year.. AMR is a leading provider of emergency and 
nonemergency ambulance service in the nation with operations in thirty-
six (36) states and the District of Columbia. EmCare is a leading 
provider of outsourced emergency department staffing and related 
management services, contracting with more than 350 hospitals 
nationwide.
    My testimony today is primarily related to my experiences and 
observations as the AMR Medical Disaster Officer in Mississippi during 
Hurricane Katrina. Today's topic, ``Empowering State and Local 
Officials Through Enhanced FEMA Regional Offices'', is timely and 
appropriate given the predictions for a very active 2007 hurricane 
season.
    In August of 2005, prior to Katrina, there were approximately 5,000 
patients in health care facilities and another 45,000 non-
institutionalized individuals with severe disabilities in the three 
Mississippi coastal counties. Many of them required assistance with 
evacuation. Katrina made landfall in Mississippi on Monday, August 29. 
We began requesting state and federal assistance for medical evacuation 
two (2) days prior to landfall. State agencies were quick to respond 
but their limited resources were quickly depleted. There was no federal 
ambulance evacuation plan in place at the time. We therefore had to 
rely upon our internal resources within the private sector. Private 
ambulances from nearby states were deployed to south Mississippi to 
complete the evacuation prior to Katrina's landfall. We are pleased to 
say there were no deaths or significant untoward effects that resulted 
from this massive medical evacuation effort.
    Twenty-six (26) days after Katrina wreaked havoc on Mississippi, 
Louisiana and Alabama, Hurricane Rita set its sights on Texas and 
Louisiana. This time the federal government was ready. FEMA authorized 
hundreds of federally-contracted ambulances to be deployed to Houston, 
Texas to assist with the medical evacuation.
    We are thankful to Congress for passing the Post-Katrina Emergency 
Management Reform Act which reorganizes the Department of Homeland 
Security (DHS) by reconfiguring FEMA and including national 
preparedness functions. We agree with FEMA Administrator Paulison when 
he said that the new FEMA ``reflects the expanded scope of FEMA's 
responsibilities. It supports a more nimble, flexible use of resources. 
And it will deliver enhanced capabilities to partners at the state and 
local level with emergency management and preparedness organizations 
and to engage the capabilities of the private sector.'' The Post-
Katrina Emergency Management Reform Act expands FEMA's regional office 
structure. It provides for the creation of Regional Advisory Councils 
to give advice and recommendations to the Regional Administrators on 
emergency management issues. We totally agree with Secretary Chertoff 
when he stated ``. . .one of the greatest lessons from Katrina that we 
learned is, you can't just show up and introduce yourself when the 
emergency is underway.''
    Mississippi is often recognized for its efficient post-Katrina 
recovery efforts. There are many reasons for this success but I believe 
these to be the most significant:
        <bullet> We utilized the Unified Command structure
        <bullet> Strong leadership from the Governor's office
        <bullet> A competent state Emergency Management Agency
        <bullet> Some of FEMA's best response personnel were sent to 
        Mississippi
        <bullet> And lastly, the resilience of Mississippians
    I have witnessed first hand what a positive difference experienced 
leaders can make during disasters. FEMA appointed James Russo as the 
Federal Coordinating Officer for Mississippi post-Katrina. He worked 
hand-in-hand with the Governor and senior leaders at the Mississippi 
Emergency Management Agency. Hopefully, empowering FEMA regional 
offices will allow experienced field commanders like Mr. Russo to carry 
out their jobs even more efficiently.
    The creation of the Office of Health Affairs, led by Chief Medical 
Officer Dr. Jeff Runge, has also had a positive impact and we look 
forward to working with Dr. Runge and his team of experts.
    Finally, I would like to comment on the need for additional DHS 
funding for emergency medical service (EMS) providers. Along with fire 
and police, EMS providers are one of three (3) primary first responder 
groups. The vast majority of EMS providers, however, lack sufficient 
access to federal funding and are, therefore, under-equipped and need 
additional training to effectively respond to a terrorist attack or 
natural disaster. Chairman Thompson, you may recall that in 2003 
Congress asked the DHS Office of Domestic Preparedness (ODP) to clarify 
whether ambulance providers are eligible for grant funds awarded to 
states. ODP provided a written opinion which states ``. . .in 
recognition that in many communities private EMS providers are the sole 
providers of emergency medical services, ODP determined that both 
public and private EMS providers are eligible for funding under the 
(State Homeland Security Grant Program), as long as this is consistent 
with the state's homeland security strategy, and the private EMS 
providers are components of the local or state response plans.'' 
Despite this opinion, in fiscal year 04 and fiscal year 05, DHS 
reported that less than four percent (4%) of first responder grant 
funding was awarded to EMS providers. EMS providers, however, represent 
one-third (1/3) of the first responder workforce and are the primary 
first responders for medical assistance as evidenced by the response to 
Hurricane Katrina. For the past two (2) years, Congress has included 
conference report language to the Homeland Security Appropriations 
Bills noting their concern over the lack of funding for EMS providers. 
They recommended a minimum of 10% of Homeland Security funding for EMS 
providers in the House Report for both of those years. We urge you to 
act on those recommendations.
    It would also appear that perhaps an amendment to the Stafford Act 
is needed to resolve EMS funding inequities. Currently, the Stafford 
Act makes no mention of funding eligibility for EMS providers or 
ambulance services. This explicit omission creates confusion for 
federal, state and local government officials resulting in disparity 
for EMS providers to receive DHS or FEMA grant funds and reimbursement 
for services rendered during times of disasters. Your assistance in 
passing a simple amendment to the Stafford Act recognizing emergency 
medical services as ``emergency work'' and ambulance providers as 
public safety personnel (along with fire and police) is requested.
    Thank you for your time today and I look forward to answering your 
questions.

    Mr. Carney. Mr. Ruiz for 5 minutes.

 STATEMENT OF BRIEN RUIZ, PRESIDENT, SAINT BERNARD PARISH FIRE 
                      FIGHTERS ASSOCIATION

    Mr. Ruiz. Thank you, Chairman Carney, Chairman Cuellar and 
Chairman Thompson, Ranking Member Dent and Ranking Member Mr. 
Rogers, and distinguished members of the committee for the 
opportunity to testify before you today. My name is Brien Ruiz, 
I serve as President of the Saint Bernard Firefighters 
Association. I am pleased to appear before you today to discuss 
the response and recovery experiences of the St. Bernard Parish 
Fire Department in aftermath of Hurricanes Katrina and Rita.
    Although Hurricane Katrina ravaged the whole Gulf Coast, it 
absolutely devastated St. Bernard Parish, Louisiana. Overnight 
a community of 70,000 individuals and 20,000 homes were 
completely covered by three to fourteen foot of water. The fire 
fighters across the Gulf Coast, like the local fire fighters of 
St. Bernard were the first to respond, performing search and 
rescue, providing emergency service. Even after their families 
and neighbors fled the communities our personnel stayed behind 
to do their jobs.
    In the ensuing days and weeks the St. Bernard firefighters 
worked around the clock with no contact, and no assistance from 
FEMA.
    We did receive support from our brothers and sisters in 
Louisiana and from the Urban Search and Rescue teams dispatched 
from Ohio, New Jersey, Georgia and Canada. Additionally, the 
International Association of Firefighters provided medical care 
and counseling to our responders. However, apart from these 
sources of support, for which I am personally grateful, we were 
largely left to fend for ourselves. Left without a steady 
supply of fuel, we filled our emergency response vehicles from 
local refineries. Left without needed supplies, we broke into 
hardware stores and grocery stores and obtained supplies. And 
post Katrina, FEMA went back on its promise to pay up-front for 
the 14 new apparatus to replace our destroyed vehicles, 
requiring the Parish to purchase $4.3 million worth of 
equipment and resubmit paperwork so they could get reimbursed.
    The Federal Government also has a vital role to play in 
supporting local emergency response. FEMA should have been an 
important resource for the St. Bernard fire fighters to do 
their job, but FEMA failed the fire fighters and the citizens 
of St. Bernard Parish miserably.
    Of the 70,000 persons who once called St. Bernard home, 
only 10 to 15,000 have returned. Our friends and neighbors are 
now scattered across the country. Our fire department struggles 
to protect what's left of our community, and our local 
government lacks sufficient funding to even begin the recovery.
    Our workload has actually increased since Katrina. Today we 
respond to more fires, fed by a large number of abandoned homes 
and huge quantities of garbage. The widespread arson that 
occurs when some realize that setting abandoned property and 
garbage gets rid of the eyesore quicker than the legal 
channels.
    Almost two years have passed since the disaster of St. 
Bernard Parish there has, in essence, been no recovery from 
Hurricane Katrina.
    I realize I paint a poor picture, but the picture I paint 
is reflective of my perspective as a Katrina responder and an 
active fire fighter of St. Bernard Parish today.
    I understand that Congress has been studying failures in 
the Federal response to Hurricane Katrina and taken concrete 
steps to improve the response to potential future disasters. 
Although I have yet to experience the impact of reform, I am 
encouraged that they will aid in the recovery of our community 
and help provide a more effective Federal response to future 
disasters.
    One of the most important FEMA reforms implemented by 
Congress was reestablishing and improving the FEMA Regional 
Offices. These offices have the potential to help to ensure 
better coordination between FEMA, state and local governments. 
It is my understanding that others in my department have spoken 
to FEMA officials to identify current needs, but much of this 
communication has proved to be too little too late.
    Relationships built through the Regional Office will give 
FEMA an intimate understanding of particular community needs 
prior to any disaster and help ensure a cooperative 
relationship between the Agency and local responders, providing 
more efficient and effective response.
    I am also appreciative of legislation passed by the 
Congress and signed into law authorizing the President to 
establish medical monitoring programs following disasters. 
Although we lack comprehensive health monitoring programs for 
individuals who responded to Hurricane Katrina, I personally 
know several responders who developed unusual medical 
conditions in the wake of the initial response. Future 
monitoring programs will permit for the treatment of potential 
diseases and other health conditions in responders that might 
not otherwise be detected.
    Perhaps most importantly, I am extremely grateful the 
provision included in the recently enacted supplemental funding 
bill waiving the FEMA required 10 percent local match of 
disaster assistance funds to rebuild our community's 
infrastructure. Since the storm, fire fighters have been 
working from trailers and working in conditions that would be 
considered substandard in any community.
    Although 10 percent match of funds seems small by Federal 
standards, setting aside this amount has been impossible given 
the scope of the disaster. Although vital, the needs of our 
community far exceed rebuilding fire houses. You can understand 
why this waive is so critical to our rebuilding process. This 
waiver will, in large part, make our recovery possible, and for 
that, I thank you.
    Such efforts notwithstanding, there remain a number of 
additional reforms that I believe would further St. Bernard's 
recovery and assist in future disasters.
    As the Committee well knows, St. Bernard Parish, like many 
communities across America, has traditionally struggled to 
balance the needs for fire service with the various other needs 
of the community.
    Although we were lucky in many ways, even pre-Katrina, we 
were often forced to do with less. Hurricane Katrina, local 
fire fighters were immediately expected to be running calls and 
performing search and rescue functions, a difficult task when 
your fire house is not constructed to withstand a Category 5 
Hurricane.
    In today's post-911 world, the Federal Government relies 
ever more on local fire fighters to respond to both natural and 
man-made disasters in a way local departments were never 
intended to function. As the Federal Government relies more and 
more on local first responders, it should also take the 
responsibility to ensure that in a disaster local responders 
have the tools, resources and means to fully function.
    second, I would urge the government to establish a health 
monitoring and treatment program for those first responders who 
responded to Katrina and Rita. Similar monitoring programs 
established for 9/11 responders have detected respiratory and 
other health problems among fire fighters that would not have 
been otherwise detected. The benefits of early detection and 
treatment have been well demonstrated though the 9/11 health 
programs. Individuals impacted by the response to Katrina would 
similarly benefit from the establishment of a comprehensive 
monitoring and treatment program.
    Lastly, I urge the Congress to consider reforms to lessen 
the burdens of the Federal bureaucracy on devastated 
communities. I understand that the money is not limitless, and 
I understand that the Nation and its citizens have many 
conflicting needs. But when a community is completely 
destroyed, as St. Bernard was, the last thing local officials 
should need to worry about is red tape and bureaucracy.
    [The statement of Mr. Ruiz follows:]

                    Prepared Statement of Brien Ruiz

    Thank you Chairman Cuellar, Chairman Carney, Ranking Member Dent, 
Ranking Member Rogers, and distinguished members of the Committee for 
the opportunity to testify before you today. My name is Brien Ruiz and 
I serve as President of the St. Bernard Parish Fire Fighters 
Association. I am pleased to appear before you today to discuss the 
response and recovery experiences of the St. Bernard Parish Fire 
Department in the aftermath of Hurricanes Katrina and Rita.
    Although Hurricane Katrina ravaged the whole of the Gulf Coast, it 
absolutely devastated St. Bernard Parish, Louisiana. Overnight, a 
community of 70,000 individuals and 29,000 homes was completely covered 
by three to fourteen feet of water. Like fire fighters across the Gulf 
Coast, the local fire fighters of St. Bernard Parish were the first to 
respond, performing search and rescue, providing emergency medical 
services, and putting out fires. Even as their families and neighbors 
fled the community, the vast majority of our personnel stayed behind to 
do their jobs.
    In the ensuing days and weeks, St. Bernard fire fighters worked 
around the clock with no contact, and no assistance, from FEMA.
    We did receive support from our brothers and sisters in Louisiana 
and from Urban Search and Rescue Teams dispatched from Ohio, New 
Jersey, Georgia, and Canada. Additionally, the International 
Association of Fire Fighters provided medical care and counseling to 
responders, and housing for our families. However, apart from these 
sources of support, for which I am personally grateful, we were largely 
left to fend for ourselves. Left without viable fire houses, we 
commandeered residences to serve as command centers. Left without a 
steady supply of fuel, we filled our emergency response vehicles from 
local refineries. Left without needed supplies, we broke into hardware 
stores to obtain PVC pipe and generators. And post-Katrina, FEMA went 
back on a promise to pay up-front for 14 new apparatus to replace our 
destroyed vehicles, requiring the Parish to purchase $4.3 million worth 
of equipment and submit paperwork to the Agency for reimbursement.
    Although the initial response to Katrina, like any disaster, was 
properly at the local level, during the response to a catastrophic 
disaster, the federal government absolutely has a vital role to play in 
supporting local emergency response efforts. FEMA should have been an 
important resource for St. Bernard fire fighters to do their jobs, but 
FEMA failed the fire fighters and citizens of St. Bernard Parish 
miserably.
    It is difficult for me to speak about the recovery of St. Bernard 
Parish, because although in some ways we have begun to rebuild our 
lives, our community as a whole has not been able to rebuild in any 
significant way. Of the 70,000 persons who once called St. Bernard 
home, only ten to fifteen thousand have returned. Our former neighbors 
are now scattered across the country, our fire department struggles to 
protect what is left of our community, and our local government lacks 
sufficient funding to even begin the recovery process.
    Before the storm, the St. Bernard Parish fire department employed 
118 fire fighters at ten fire houses. Today, we are fortunate to have 
90 personnel on staff. While this may seem sufficient for a community 
with less than a quarter of its original population, our workload has 
actually increased since Katrina.
    Today, we respond to more fires than ever before, fed by the large 
number of abandoned homes and huge quantities of garbage. This 
difficult job is significantly complicated by the widespread arson that 
occurs when some realize that setting abandoned properties and garbage 
ablaze alleviates the eyesore much more quickly than could any legal 
channels.
    Additionally, St. Bernard boasts thirteen refineries, all of which 
present a significant fire and hazardous materials danger, and all 
thirteen of which remain in operation today.
    Almost two years have passed since the disaster. But for St. 
Bernard Parish, there has, in essence, been no recovery from Hurricane 
Katrina.
    I realize I paint a dour picture, but the picture I paint is 
reflective of my perspective as a Katrina responder and an active fire 
fighter in St. Bernard today.
    I understand that the Congress has been studying failures in the 
federal response to Hurricane Katrina and taken concrete steps to 
improve the response to potential future disasters. Although I have yet 
to experience the impact of recent reforms, I am encouraged that they 
will aid in the recovery of our community and help provide a more 
effective federal response to future disasters.
    One of the most important FEMA reforms implemented by the Congress 
was reestablishing and improving the FEMA Regional Offices. These 
offices have the potential to help ensure better coordination between 
FEMA, state and local governments and local emergency responders. To 
this day, I have yet to personally encounter anyone from FEMA in St. 
Bernard Parish. It is my understanding that others in my Department 
have spoken to FEMA officials to identify current needs, but much of 
this communication proved to be too little too late.
    Relationships built through the Regional Offices will give FEMA an 
intimate understanding of a particular community's needs prior to any 
disaster and help ensure a cooperative relationship between the Agency 
and local responders, providing a more efficient and effective 
response.
    I am also appreciative of legislation passed by the Congress and 
signed into law authorizing the President to establish medical 
monitoring programs following disasters. Although we lacked a 
comprehensive health monitoring program for individuals who responded 
to Hurricane Katrina, I personally know several responders who 
developed unusual medical conditions in the wake of the initial 
response. Future monitoring programs will permit for the treatment of 
potential diseases and other health conditions in responders that might 
not otherwise be detected.
    Perhaps most importantly, I am extremely grateful for the provision 
included in the recently-enacted supplemental funding bill waiving the 
FEMA-required ten-percent local match of disaster assistance funds to 
rebuild our community's infrastructure. Since the storm, fire fighters 
have been working from trailers, purchasing our own supplies and 
working in conditions that would be considered substandard in any 
community.
    Although a ten-percent match may seem small by federal standards, 
setting aside even this amount has been impossible given the scope of 
the disaster. Although vital, the needs of our community far exceed 
rebuilding fire houses. Much of our vital infrastructure remains 
unrepaired. For example, it would cost $52 million to rebuild each of 
our three sewer plants. Given that this year's budget for the entirety 
of St. Bernard Parish is $38 million, you can understand why this 
waiver is so critical to our rebuilding process. This waiver will, in 
large part, make our recovery possible. And for that, I thank you.
    Such efforts notwithstanding, there remain a number of additional 
reforms that I believe would further St. Bernard's recovery and assist 
in future disaster responses.
    As the Committee well knows, St. Bernard Parish, like many 
communities across America, has traditionally struggled to balance the 
needs of the fire service with the various other needs of the 
community. And although we were lucky in many ways, even pre-Katrina, 
we were too often forced to do more with less. For example, pre-
Katrina, our Department's fire houses were tin, ground level buildings. 
Now most people would realize that, in a zone often hit by hurricanes, 
a ground level structure made of tin could not withstand extended 
periods of high wind and heavy rain. In the aftermath of Hurricane 
Katrina, local fire fighters were immediately expected to be running 
calls and performing search and rescue functions--a difficult task when 
your fire house is not constructed to withstand a Category 5 Hurricane.
    In today's post- 9/11 world, the federal government relies ever 
more on local fire fighters to respond to both natural and man-made 
disasters in a way local departments were never intended to function. 
As the federal government relies more and more on local first 
responders, it should also take the responsibility to ensure that, in a 
disaster, local responders have the tools, resources and the means to 
fully function.
    Secondly, I would urge the federal government to establish a health 
monitoring and treatment program for those responders who responded to 
Katrina. Similar monitoring programs established for 9/11 responders 
have detected respiratory and other health problems among fire fighters 
that would not have been otherwise detected. As I mentioned previously, 
a number of Katrina responders have unusual or unexplained symptoms in 
the aftermath of the response. The benefits of early detection and 
treatment have been well-demonstrated through the 9/11 health programs. 
Individuals impacted by the response to Katrina would similarly benefit 
from the establishment of a comprehensive monitoring and treatment 
program.
    Lastly, I urge the Congress to consider reforms to lessen the 
burdens of the federal bureaucracy on devastated communities. I 
understand that money is not limitless, and I understand that the 
nation and its citizens have many conflicting needs. But when a 
community is completely destroyed, as was St. Bernard, the last thing 
local officials should need to worry is red tape and bureaucracy.
    Whenever disaster strikes, no matter its scope, the professional 
fire fighters of St. Bernard Parish work tirelessly to do the jobs for 
which we were hired: to save lives and protect the public safety. 
Whether responding to a house fire or protecting a community of 70,000 
in the wake of natural disaster, we have always made due with whatever 
scarce resources were available. But we cannot, and no fire fighters 
anywhere should be expected to do it alone.
    The federal government can do so much more to help the fire service 
respond more effectively to future disasters. We've made some very good 
initial steps and I look forward to partnering with the members of this 
committee and this panel to build upon recent reforms and continue 
improving the manner by which our nation responds to large-scale 
emergencies.
    This concludes my testimony. Thank you for your interest and 
attention. I am, of course, happy to answer any questions you may have.

    Mr. Carney. Thank you, Mr. Ruiz. I thank all the witnesses 
for their testimony, and I will remind each member that he or 
she will have 5 minutes to question the panel, and I'll 
recognize myself for five minutes.
    But first I'd like to remind everyone in the room to please 
put your cell phones or your PDA's on vibrate or silence, 
please. Thank you very much.
    Now, I know the national response plan is in the process of 
being rewritten and released, and its release has been delayed. 
Major May, what is your involvement in the re-write?
    Major May. Pretty extensive. The re-write process is really 
probably the largest, collaborative effort I think we've seen 
in the country where we actually pushed down to the local level 
and asked and solicited information from state and local and 
other partners, and globaled those requests and requirements 
and suggestions back up to headquarters for their consideration 
in incorporating it in the national plan.
    Mr. Carney. Mr. Baughman, did you or any other state 
emergency managers have input in the process.
    MR. Mr. Baughman. As a matter of fact I sat on the steering 
committee for the National Response Plan. I had to get off 
because of other commitments, but I was on the committee 
initially. And it has gone out--I was the representative for 
the National Emergency Management Association, so it was my job 
to make sure that all the other state agencies got latest 
information on the plan.
    Mr. Carney. Are you satisfied with how it's coming out with 
the process? If not, why; if so, why?
    Mr. Baughman. The jury is still out. I think that Director 
Paulison has made a good faith effort to include all the 
stakeholders. I'm not sure that all the decisions on what is 
going to be in the plan is in his hands. I'll just leave it at 
that.
    Mr. Carney. What do you think should be in there?
    Mr. Baughman. I think that there ought to be more focus on 
the--if you're going to have a National Response Plan it's got 
to be more than the Federal role. It has got to show what state 
and local government's role is. That's the reason it was 
changed from a Federal response plan to a National Response 
Plan, because state and local governments have a role in 
carrying out emergency response. And I think that those roles 
need to be better reflected in that plan.
    Mr. Carney. Thank you. Mr. Ruiz, Mr. Delahousey, if the 
worst were to happen again and the coast was struck by another 
major hurricane do you think FEMA is better prepared to assist 
local governments now.
    Mr. Ruiz. I do not. I haven't seen--the first time I spoke 
to any FEMA personnel was today. In my department I've seen 
FEMA around just looking at our fire stations, but I don't 
think so.
    Mr. Delahousey. A couple of months ago this committee had 
Mr. Paulison testifying in DC, I was there. At that time Mr. 
Paulison indicated that there would be the revisions to the 
National Response Plan and a Federal ambulance response plan 
would be in place by the beginning of hurricane season. That 
was last Friday. There was no plan in place. There was supposed 
to be and RFP issued on April 30th; that did not happen, it was 
delayed.
    However, I am pleased to say at the close of business on 
Friday we were contacted by FEMA and asked if we would 
accompany, because we have vast resources, would be available 
until a formal plan could be in place. And we, of course, said, 
yes indeed, we would provide those types of resources.
    So there are things in the works now, and we were very 
pleased to hear that some of the experienced FEMA leaders that 
assisted us after Katrina will be here again in Mississippi for 
this hurricane season.
    Mr. Carney. Thank you very much. I now recognize the 
Ranking Member from the subcommittee, the gentleman from 
Alabama Mr. Roger for five minutes.
    Mr. Rogers. Thank you, Mr. Chairman. I want to go first to 
Mr. Baughman and Mr. May. You heard me talk about the concern 
for getting water out after one of these disasters, 
particularly in Alabama. Do we have enough generators for these 
rural water systems assuming the electricity goes out.
    Mr. Baughman. What we've done is we've done an assessment 
of all of those rural water wells. We are in the process of 
purchasing generators using our Hazard Mitigation Grant 
Program, monies from FEMA to put generators at those wells. Do 
we have all the requirements met, no, sir, we do not.
    Mr. Rogers. Well, that's what brought it to my attention. I 
understand that Georgia has adequate supply of these rural 
generators because the regional office is there. Mississippi 
now has them because of Katrina and Rita, but Alabama, 
particularly down on the coast, has an inadequate ratio. So I 
would ask you to work with the rural water association to make 
sure that those associations have these mobile generators that 
you can provide them.
    Mr. Baughman. I just met with them last Monday. They have 
35 generators they can bring there to assist us. I think most 
of the rural water wells by here in the next couple of weeks 
will be met. The generators in Atlanta though are FEMA 
generators, and until an assessment has been done, we have put 
our request in for 100 generators, 250 were called, so that is 
part of what they will forward and deploy.
    Mr. Rogers. Excellent. And I talked a little bit about this 
with Mr. May on the bus, I'm interested in canine assets. I saw 
post Katrina we had a real problem with search and rescue and 
cadaver dogs. Recently with Enterprise where FEMA performed 
exceptionally well, we still didn't have these canine assets 
come in for search and rescue. The local rescue squads were 
using personal dogs for searching for cadavers. Tell me, what 
else do y'all use, who do you draw on? FEMA doesn't have these 
dogs as I understand it.
    Major May. Bruce may want to comment because he set up the 
search and rescue program nationally and has more information.
    Mr. Rogers. Well, whoever.
    Major May. Let me just say, I don't know that we actually 
employed the national search and rescue team at Enterprise 
because the local and state came.
    Mr. Baughman. As a matter of fact what we did is we used 
several search and rescue teams. One from Dothan, one from 
Mobile, along with the state mortuary assistance team out of 
Cullman. But there is a shortage of cadaver dogs.
    When I was with FEMA we actually used the search and rescue 
system to locate those dogs. We don't have those in the 
national system. What we've done though, if we needed 
additional cadaver dogs, those are available through the 
Emergency National Assistance contact, but that takes hours. So 
in a tornado situation you can't get them fast enough. Now, for 
a hurricane situation you can ask for those ahead of time and 
get those pre-positioned.
    Mr. Rogers. That leads me to my next question, and this is 
more for Mr. Baughman. When I was in the last go down down the 
Gulf Coast with, at that time Speaker Hastert and Ms. Pelosi, 
we met with Governor Riley, and one of the things he emphasized 
that we need is the ability for these local mayors and county 
commissioners to prenegotiate contracts for debris removal and 
other services so that we're not getting robbed like we were in 
this situation. Have you seen a difference now, is FEMA working 
with you to allow local governments to do these kind of 
predisaster negotiations?
    Mr. Baughman. Well, it's not FEMA, but we are working to 
put prenegotiated contracts in place for the southern third of 
the state.
    Mr. Rogers. Will FEMA pay for those.
    Mr. Baughman. If those contracts are activated at the time 
of the disaster and they're prenegotiated, yes, FEMA will 
reimburse those contracts.
    Mr. Rogers. And the last thing I have to talk about is, and 
I can't remember which one of y'all brought it up, but it's a 
shortage of regional staffing. This is something we've been 
finding throughout Homeland Security, particularly FEMA, there 
is a problem with recruitment and retention. What is your 
regional staffing and at what level is that compared to what it 
should be.
    Major May. Currently it's about 120 PFT's. We also have a 
number of PAD's and what you call core employees. That puts our 
numbers up to around 150 as far as people actually working. 
And, you know, we have a tremendous heavy workload. I think 
that--
    Mr. Rogers. What should it be? You've got 150, what should 
it be; what's the number?
    Major May. I think the department and the agency is talking 
about increasing over the next three years by 30 percent.
    Mr. Rogers. Three years, is that fast enough?
    Major May. Sir, it takes some while to absorb that many 
people, and also you have people that leave, so filling 
vacancies is sometimes a difficult thing.
    Mr. Rogers. Well, retention, is that a problem?
    Major May. It can be. We've got a lot of senior staff.
    Mr. Rogers. Thank you.
    Mr. Carney. Thank you, gentlemen. The Chair now recognizes 
the Chairman of the Subcommittee on Emergency Communications 
Preparedness and Response, the gentleman from Texas Mr. Henry 
Cuellar for five minutes.
    Mr. Cuellar. Thank you, Mr. Chairman. This question is to 
Major May. In the April 26th testimony before congress Deputy 
FEMA Director Johnson said that evacuations, mass shelters, 
temporary housing were a priority focus for FEMA. How will this 
recent change, that is making FEMA better than the Red Cross as 
the lead agency for mass care and housing affect the capacity 
to provide mass care and the shelter for disaster evacuees?
    Major May. Well, I think that what he meant to say that 
we're incorporating that working very much with the Red Cross 
on the whole shelter issue to make sure they're in lockstep 
with us. We are working with, as a matter of fact, the mass 
evacuation with the Gulf Coast right now with the partner 
states of Alabama, Louisiana, Texas and Mississippi, and also 
close states like Kentucky, Tennessee and Arkansas and Oklahoma 
to putting a plan in place so that we can find shelter space 
outside of those affected areas.
    So we're involved with the transportation of those 
individuals, evacuating those individuals and also providing 
shelter for them. We're working very closely on this now with 
HUD for the long-term HUD housing issue. Those are much longer 
than just the shelter operations. But the focus is still to be 
involved with the Red Cross.
    Mr. Cuellar. All right. Let me just follow up on something. 
When you look at FEMA and the Red Cross and other shelter 
providers in the gulf states are they prepared to meet the 
needs of the special needs population such as those who need 
medications and oxygen.
    Major May. That's a real challenge and that's why the 
relationship with this gentleman down the street here, I mean 
down the desk here, is awfully important for us formulating 
that because we may have to move people some distance to be 
able to provide that. But we're working with the states, the 
states are working with the locals to identify those gaps in 
medical, special medical needs shelter capability.
    Alabama has identified some special shelter capabilities in 
some of the junior colleges because you can wrap around 
additional services other than just a gym floor to provide 
that. And so we're working very hard to identify that 
population, find out who needs to be transported and provide 
facilities for them and wrap staff around them when they get 
there.
    Mr. Baughman. I would like to touch on that because that's 
not really a Red Cross issue, it's a health and medical issue, 
which in our state it falls under the State Health Directors 
purview, because we have medical staff nurses. We have 15 
shelters in our state with capacity of about 2000. The most 
we've had in shelters from our three evacuations during Opal, 
Dennis and Katrina was 300. So right now we have enough 
capacity, but as additional evacuees come in from Mississippi, 
Louisiana and Florida to our state we may not. So we continue 
to build capacity, and I think every state continues to build 
capacity.
    Mr. Cuellar. Mr. Delahousey you're next.
    Mr. Delahousey. Well, the answer as to whether or not there 
is adequate facilities to prepare for special needs patients I 
can tell you, no, there are not. We don't know how many special 
needs patients there are out there. There is no comprehensive 
national registry. Here in south Mississippi we estimate 
45,000. There are not 45,000 places that we can relocate those 
people to in this state, so it's a problem.
    And the Red Cross does not provide medical care at 
shelters. The Red Cross does not man special needs shelters, 
it's left up to the state. It's a problem that's been ignored 
for years. We saw it surface in Hurricane Katrina. There is a 
greater awareness now, but we've got a long was to go before 
it's rectified.
    Mr. Cuellar. So, Major, what do you think we ought to be 
doing.
    Major May. Well, we're moving, we're identifying, we're 
working very hard to identify that population and then try to 
find solutions. We're not there yet.
    Mr. Cuellar. On a scope of one to ten where are you, 
halfway.
    Major May. As far as identifying--meeting the needs that 
have been identified to us, about halfway there.
    Mr. Cuellar. OK. Identifying one part.
    Major May. We're asking the workers in the states to 
identify their population for us, and when they present that to 
us we try to help them provide solutions. They're not always 
successful in identifying the real population exactly so.
    Mr. Cuellar. So on the first part, which is the 
identification, you're saying that you're about halfway. On the 
preparation, and I see--
    Major May. I'm talking about numbers, not individual names, 
but estimates on what numbers would be like.
    Mr. Cuellar. Well, I see you shaking your head.
    Mr. Baughman. It's because as was mentioned, there is no 
registry. We don't know what the universe is of people with 
special needs requires. Until that's done we don't know whether 
we're 10 percent, 40 percent, 80 percent towards meeting those 
requirements. In Alabama, what we're doing is we're simply 
basing it upon three evacuations in an 11 month period of time 
and the number of people that showed up at shelters. But again, 
we don't think that that's a hundred percent of the special 
needs shelters in the state. So that's the reason we continue 
to build capacity.
    Major May. And that is historical data and that's what 
we're actually working off of now.
    Mr. Cuellar. OK. Let me just--we'll actually I'll go ahead 
and let the other gentlemen as questions. Thank you, Mr. 
Chairman. Thank you, gentlemen.
    Mr. Carney. Thank you, Mr. Cuellar. The Chair now 
recognizes the Ranking Member of Subcommittee of Emergency 
Communications Preparedness and Response, the gentleman from 
Pennsylvania Mr. Charles Dent for questions.
    Mr. Dent. Thank you, Mr. Chairman. Good afternoon. For 
Major May, my question deals with evacuation plans and the 
process that you've employed there. Could you discuss your role 
in the development of the Gulf Coast evacuation plan?
    Major May. My role in the Gulf Coast evacuation plan.
    Mr. Dent. Yes, in developing of the Gulf Coast evacuation 
plan.
    Major May. Yes, I co-chaired that responsibility with Mr. 
Peterson out of Denton, Texas, and I'm working very hard to 
provide the framework to gather the information to put that 
plan in place.
    Mr. Dent. Now, obviously, many of the gulf states have 
their own evacuation plans, and how do these, their evacuation 
plans, dovetail with this new regional plan that builds on your 
efforts?
    Major May. Yes. We have teams that have been meeting with 
Alabama, Louisiana, Mississippi and Texas, and they're in the 
host states this week meeting with Oklahoma and Kentucky and 
Arkansas and Tennessee. And they're gathering GAP information, 
kind of like a GAP for us to determine what capabilities they 
have at the local level to transport people, populations, and 
trying to determine what Federal assets maybe be brought to the 
table to assist that capability being put in place.
    Mr. Dent. And which Federal, State, and local agencies are 
currently involved with this evacuation plan process?
    Major May. Well, all of the state agencies assume that the 
state director brings to a table are involved, and that would 
probably require the state director, Mr. Baughman, can tell you 
specific to Alabama.
    But in the case of the Federal folks that are involved, the 
Corp of Engineers are involved, DHS is involved, DOT is 
involved. Those are the primary ones that are involved, and 
also DMV has some visibility in it.
    Mr. Dent. And when do you expect this plan to be completed?
    Major May. We hope to have that in place and operational by 
the first of July. I'm sorry, middle of July.
    Mr. Dent. Have you engaged with various potential host 
communities as you develop this plan?
    Major May. Yes, we're doing that as we speak today. And I 
have also been on the phone to the various governors talking 
with them about participating in this.
    Mr. Dent. I represent an area of eastern Pennsylvania. I 
worry about evacuations of New City and Philadelphia, and it's 
a constant concern considering them.
    And, Mr. Baughman, I know your office has also been 
involved in developing the regional evacuation plan for the 
Gulf Coast. What's your assessment of this plan's development, 
and do you believe that sufficient progress has been made up to 
this point?
    Mr. Baughman. Yes. Basically what we're trying to do is to 
make sure that when there is a multi state evacuation that when 
people cross state lines from Mississippi--for example, when an 
evacuation from Louisiana occurs many people go up Interstate 
10 over to the Mississippi Gulf Coast. They pick up personnel. 
If the storm's moving further to the east we pick up traffic 
along the Mississippi Gulf Coast and they end up going up north 
on I-65. So we're going to be sheltering those personnel.
    Well, what we need to know is when are they doing a 
mandatory evacuation, are they reverse lane, how many people 
are potentially coming our way because we have limited shelter 
capability.
    So, yes, it is helping us because we have the capability to 
shelter with instate personnel 44,000. Now, we have the 
capacity to go up to 90,000 if, in fact, additional personnel 
are brought in through FEMA to help staff that additional 
shelter capacity. So, yes, we are working very closely with 
them on it.
    We're working to identify what our emergency transportation 
requirements are, what our emergency communication requirements 
are.
    For example, are we doing an evacuation with school buses. 
Do we have communication on those school buses so that we can 
get a check as to where that bus is in progress to a particular 
shelter.
    And just for your interest maybe, the states of North 
Carolina, South Carolina, which are closer to Pennsylvania have 
indicated as we do this evaluation that they can shelter their 
populations in place in the state.
    Mr. Dent. Thank you. Mr. Delahousey, on page 3 of your 
testimony you mentioned Mississippi is recognized for it's 
efficient post-Katrina recovery efforts. You identified a few 
reasons for that success--in particular, that you a unified 
command structure, strong leadership from the Governor's 
office, and a competent State emergency management agency. Do 
you believe that those three attributes were lacking in 
Louisiana and that this might have contributed to some of the 
difficulties we had in responding there?
    Mr. Delahousey. There are a lot of things different 
statistically between Mississippi and Louisiana, and I'm 
hesitant to be critical of the emergency response there. I can 
say that from where we sat, the emergency operation center, the 
local government officials cooperated with the county 
officials, cooperated with the state officials, cooperated with 
the Federal officials. And I think that contributed gravely to 
the cohesive approach that we had to the disaster management.
    Mr. Dent. And I guess my final question would be, do you 
believe that all levels of government are prepared to respond 
to a category 3 or stronger hurricane if one were to hit the 
Gulf Coast region this year?
    Mr. Delahousey. Well, we're better prepared than we were in 
2005 I can tell you. And, now, one of the things that I have to 
comment on for the 1906 hurricane season there was a Federal 
plan in place to evacuate the 12 parishes in south Louisiana. 
It was not communicated, I don't think, to the people that live 
there, but my company was under contract to provide 300 
ambulances should this same thing occur so that the people next 
time could get out. And those type of plans are ongoing.
    And the government doesn't own ambulances, neither does 
MDMS, and they recognize that and they're trying to get a plan 
in place. It's a slow process, but it's improving.
    Mr. Dent. Thank you, Mr. Chairman, and thank you all for 
your service.
    Mr. Carney. Thank you, Mr. Dent. The Chair now recognizes 
the chairman of the full committee, the gentleman from 
Mississippi, Mr. Bennie Thompson for questions.
    Mr. Thompson. Thank you very much, Mr. Chairman. I guess I 
need to kind of go down the line. The question is, if we have 
an existing plan, or a plan that's about to be rewritten, but 
we're not sharing the responsibilities of the plan with the 
stakeholders we have a problem. Mr. May, can you share with the 
committee what your expectations of the present plan in place, 
and how that is to be communicated with all the stakeholders?
    Major May. I think generally speaking the stakeholders at 
stake, most of them, understand what's in the National Response 
Plan. And what's holding up the publication of the National 
Response Plan are really not items that would over all keep us 
from responding adequately, I think, to an event. By using the 
instant command system and using MEMS the national, I mean, 
national instant management system and that framework we 
understand responsibilities of the various levels of government 
under our unified command, and we would be, I think, prepared 
to respond to those needs at the state level. And I don't think 
that's an impediment at this time.
    There are various client ops specifically that deal with 
hurricane preparedness that have been put together.
    But the National Response Plan is an all hazards plan that 
deals with all hazards not just hurricane preparedness.
    Mr. Thompson. I understand. But for the sake of the 
discussion we'll talk about hurricanes.
    Major May. OK.
    Mr. Thompson. So, how would a local county or parish 
official know about this plan? How would you expect that plan 
to be communicated all the way down to all the stakeholders.
    Major May. It would be the responsibility of the state 
government to transmit that plan down to state and local 
governments.
    Mr. Thompson. Do you require any sign off by any individual 
certifying that that plan has in effect been provided to those 
individuals.
    Major May. The states have to certify that their MEMS is 
compliant. That they are, and part of that I think would be the 
transmittal of a planning document or understanding that the 
planning process down to the local level.
    Mr. Thompson. Yes or no.
    Major May. Would I expect the states to provide that.
    Mr. Thompson. Well, I think there is some question as to 
whether or not the stakeholders who are responsible for 
carrying out certain aspects of this plan may or may not have 
knowledge of it. And I'm saying are you--
    Major May. There's no--
    Mr. Thompson. Excuse me. Are you requiring them to certify 
that they have received the plan.
    Major May. No, sir.
    Mr. Thompson. Well, I think that would be something that 
would help facilitate some of the conflicts. Mr. Baughman made 
reference to some generators that are housed in Georgia. For 
the sake of the record, how many generators do you have in 
Georgia?
    Major May. There are not very many. They're in a stockpile. 
Most of the generator capacity the agency had is actually in 
Forth Worth, Texas. And I think they probably have 100 
generators in Atlanta. But that's part of the national 
stockpile. And the generators in Texas could be brought to any 
place they are needed in the southeast. It just happens to be 
where they are today.
    Mr. Thompson. Part of the FEMA response deals with the 
travel trailers immediately after a hurricane. Now that you've 
heard some questions about formaldehyde in trailers, do you 
plan to have somebody look at that before any additional travel 
trailers are put into an area, or just go ahead and you decide 
it from your standpoint.
    Major May. My understanding that this is what they're 
doing. That's not under my responsibility, but I understand the 
agency has identified the fact they have the problem. They've 
made recommendations to individuals that are in those trailers, 
what they can do to ventilate formaldehyde from those trailers. 
They've got a monitoring system in place working with EPA, and 
in the construction or ordering of new trailers they're working 
with the manufactures to make sure those formaldehyde numbers 
are way down, acceptable levels.
    Mr. Thompson. So in other words, anyone that's in one has 
been told that you need to either vent them or we will vent 
them or we will provide a monitor.
    Major May. That's my understanding.
    Mr. Thompson. So has that been an official FEMA directive, 
or where did that come from.
    Major May. I will have to get back to you on that.
    Mr. Thompson. All right. Can you get it back to the 
committee in writing on that.
    Major May. Yes, sir.
    Mr. Thompson. This Gulf Coast evacuation plan, and I think 
Mr. Dent talked about, and I have to apologize I can't hear 
from that side of the table for some reason; is that plan 
already approved and in writing.
    Major May. No, sir, it's in process. We're working now with 
the host states that would be receiving evacuees from outside 
of the area, the affected area to make sure they can shelter 
those people.
    Mr. Thompson. So what's the plan now if something were to 
happen tomorrow.
    Major May. Well, the plan would be to identify the states. 
The city of New Orleans has some evacuation capabilities, the 
state of Louisiana has some capability, and we'll be working 
with them to make sure if they needed to shelter those 
populations outside the state that we can provide assistance in 
them doing that. Contracts are being put in place as we speak.
    Mr. Thompson. So there's no plan.
    Major May. There is not a plan that I can tell you 
specifically where we're going to be taking certain individuals 
from, say Louisiana to a location somewhere outside of the 
state of Louisiana. The state of Louisiana has plans to 
evacuate their on populations to shelters within the state, and 
other states also. Alabama has an agreement with them.
    Mr. Thompson. OK. Thank you very much.
    Mr. Carney. I thank the Chairman. The Chair now recognizes 
other members with questions that they may wish to ask the 
witnesses. I'll begin with Ms. Sanchez, Loretta Sanchez from 
California.
    Ms. Sanchez. Thank you, Mr. Chairman, and thank you 
gentlemen for being before us. I really wanted to ask some 
questions with respect to insurance. I don't know if you all 
would really be the right witnesses to ask with respect to 
that. You're all shaking your heads no.
    OK, let me ask an easy one to begin with then. Could you 
give me some indication, any of you, or all of you, about the 
work that the faith based groups did when they came in, what 
they did, how they set up, if they had contact with you or if 
they did it on their own? And I'm going back to the fact that I 
have a fire fighter, we had many fire fighters come from 
California to help in the Katrina situation, and one of them 
that talked to me at length about his stay here, which was 
many, many months, said he was just amazed at the faith based 
organizations and everything that they got done. And 
unfortunately he also mentioned that one of faith based 
organization I think was the Latter Day Saints sent a whole 
bunch of bags or packages all packed up and everything, then 
had in there, you know, courtesy of the Latter Day Saints, and 
they were asked to take those out and put the Red Cross's 
paraphernalia in there. So, can you discuss a little bit about 
the faith based organizations and how they handled, and what 
they did.
    Mr. Baughman. Sure, I can touch on it. There is several 
organizations. There is the National Organization of Voluntary 
Agencies active in a disaster. Each state has a chapter of 
that, which contain most of your faith based organizations.
    Ours are coordinated by the Governor's Office of Faith 
Based Initiatives, which is part of our plan. And so any 
voluntary agency coming into the state working on a disaster is 
coordinated by that office, which they work with those 
organizations day in and day out.
    But there is national organization that takes a look at how 
can we maximize the utilization of those faith based 
organizations in a disaster? That way you don't have a Red 
Cross and a Salvation Army Emergency Response vehicle setting 
up next to one another, they're not competing, they're 
complimenting one another, and we're utilizing all of their 
assets, not just one organization. So, that's what we've done.
    Mr. Delahousey. I can tell you from ESFA, which is the 
medical section of the disaster plan, a man that, Dr. Robert 
Travnicek from the local health department, and we had a lot of 
faith based groups that came into the area and did a lot of 
good work. Unfortunately they were not coordinated when they 
came, they did not check in; some of them did not check in 
through the local emergency operations center, so we had no 
idea where they were. We could have deployed them to probably 
more strategic locations had that happened. But they served a 
very valuable purpose.
    And it is a problem also when your local health medical 
community is trying to get back on its feet, and local doctors 
are trying to see patients again. What can you do? Do you ask 
the for free faith based groups to leave the area so that the 
doctors begin practicing medicine again. There was a lot of 
criticism after Katrina for that, and it was a very difficult 
situation, but they did tremendous work in south Mississippi. 
The coordination of those could have been better.
    Mr. Ruiz. We had three or four groups that came into--I can 
only speak about St. Bernard Parish, you know, the rest of the 
state I really can't speak of. But they came in and we took the 
initiative, we coordinated them, the fire department with 
Mericarp, and they came in, we coordinated them and they gutted 
houses, and they're rebuilding houses today. We've still got 
some groups, Catholic Charities, the Billy Graham group, the 
Baptists, they are down there building houses for individuals 
today. You know, thank God that they came down there and helped 
the citizens of St. Bernard.
    Ms. Sanchez. My last question is to you, Mr. Ruiz, it's 
about when help is the first responders of the fire fighters 
and some of the others. Can you elaborate a little on what 
you've seen, and what you personally have, of course you 
haven't seen the whole school of it, but is this a large 
percentage we need to worry about.
    Mr. Ruiz. Well, I think it could be a large percentage, 
Ma'am. In my department I have five guys that came down with 
some types of diseases that it took forever to find out what it 
was. One individual, I brought him with me to our state 
conventions and they had a doctor from John Hopkins came in, 
and he was describing his problems that he had. He told that 
they was having the same type of symptoms in post 911 up there. 
You know, I first started getting involved with this was 
because of medical reasons. I wanted to setup some type of, uh, 
to draw more positive, to do more research to monitor us 
because our Parish cannot afford it. If we use our health 
insurance our health insurance will sky rocket. So we hope the 
government will step in and start to monitor us just like we're 
doing for 911. You know, four or five years down the road what 
type of diseases are we going to have.
    You got to understand, me personally, I worked in five 
foot, probably four and half foot of water for the first six 
days of the storm; human waste, animal waste, the refinery 
spills, you know, so what have I absorbed working in this water 
for that length of time that's not going to effect me until 
years down the lone.
    Ms. Sanchez. Thank you, Mr. Chairman.
    Mr. Carney. Thank you. I now recognize Mr. Perlmutter, Ed 
Perlmutter from Colorado, for five minutes.
    Mr. Perlmutter. Thanks, Mr. Chairman, and, Mr. May, I will 
start with you since you and I were having this conversation at 
lunch. But I really want to talk, because it was something that 
came up while we were on our tour, about actions that were 
taken locally by the school districts, by the cities, by the 
parishes, where they had to act because there wasn't anybody 
else around to act, and they did the best they could to make 
something good out of a terrible situation. How can we in the 
Federal arena assist them now that they're making claims to get 
repaid for some of the things they did, yet they've got to go 
through all sorts of appeal processes when they acted in, and 
you used I think the words good faith, and I thought that was 
right on the mark. And if you could just say a few things about 
that.
    Major May. Well, one of things we need to do a better job 
on, and we have been working with the states, is to do training 
with them as an applicant and what's eligible and not eligible 
for reimbursement. And I know the states in many cases, or 
Alabama does a good job, of taking this very training down to 
the local level and trainingthis is training that takes place 
prior to the event. So, we've got to do a better job of that, 
making sure that people at the mayors level and school board 
level knows the kinds of things that are eligible for 
reimbursement. These prenegotiated, precontracts is good 
example of having something in place that increases your 
ability to be reimbursed in a timely and accurate way.
    There are going to be cases and situations, and I've been 
involved with them, and I have seen other people, because 
you're in a hurry up, hurry up mode, and then you say the 
auditors come in, and a lot of times FEMA may be actually 
saying, yeah, this was done in an emergency situation. You need 
to really take a look at this. But when the auditors come in 
and the dust is settled and they look at it by the book, and 
you don't have the flexibility in a lot of cases to do that.
    We do have an appeal process in place. It does give the 
director, and gives me, the Regional Administrator, myself and 
the director some leeway to maybe look at some situations and 
have a chance to make sure that's not over burdensome as far as 
the appeal process is concerned.
    Mr. Perlmutter. I guess what, and it may be that we've got 
to change the law, but from the organization standpoint, 
especially if it's a governmental entity, a school district or 
a city, a town, a county, that they get a presumption in their 
favor, you know, of good faith, and not that they have to 
continually--I mean, the ordinary citizen is having a tough 
enough time out there. We heard from Martha Murphy as we were 
coming over here about her belief that just citizens taking the 
bull by the horns and acting, you know, save this town from 
much more misery than it was going to have, than it could have 
had. So, I guess I'm just asking on, you know, as the 
Administrator for your region, I'm saying as a panel we need to 
take a look at presumption of good faith in terms of these 
appeal processes so that the folks here can get on with the 
rest of their lives.
    Major May. I agree with you. And I always look at things, 
did it serve a governmental purpose, did it save lives and 
property, is there something that if they had not taken--did it 
take the burden off the Federal Government by them doing this 
action? So I kind of look at it from both standpoints and try 
to push the regulations, but when the IG is there sometimes 
they don't see it that way.
    Mr. Perlmutter. Changing the subject a little bit, 
something we haven't really talked much about; but again, on 
the trip over here I asked some questions about the response of 
the National Guard to Katrina. And what I was advised is that 
much of the Mississippi Guard had been deployed to Iraq at the 
time, all of their equipment had been basically had been 
deployed to Iraq at the time, and that it was difficult for 
them to get themselves into place when they were stretched in 
terms of their men and women in the service, but also their 
equipment. What, if anything, has been done to remedy that 
situation? And maybe Mr. Baughman you want to take that.
    Mr. Baughman. Normally FEMA is not responsible for 
deployment of the Guard. That's normally done by the Governor. 
And if the Governor needs additional help from the Guard, they 
do that under the Emergency Management Assistance Compact.
    What we've done in our state is our Adjutant General has 
setup three joint task forces. He knows what the equipment 
requirement and the personnel requirement are for each one of 
those. If the equipment is overseas, he's now made arrangements 
during hurricane season to get that from other states under 
that compact agreement.
    Mr. Perlmutter. But see, I think what we have is just sort 
of a domino effect here, because we did hear from the National 
Guard two weeks ago, we had a hearing. And I think I understand 
that under this EMAC there is a kind of a pooling process.
    Mr. Baughman. Yes.
    Mr. Perlmutter. And we did, we heard testimony that the 
Guard as a whole was at about 38 to 40 percent of their 
equipment needs. We also heard that, you know, especially as 
this escalation in troops is taking place in Iraq, more of the 
Guard is being redeployed, you know, for the second and third 
time back to Iraq, and my question to you is, if you have 
another Katrina come through here and you get a Katrina/Rita, 
how are you going to deal with that.
    Mr. Baughman. Guard assets are a problem. But again, the 
way we've dealt with it, and I can only talk specifically for 
Alabama, is our Adjutant General has made arrangements with 
adjacent Adjutant Generals to bring those equipments that their 
Guard pools, from that pool which you were talking about, to 
our state to preposition there ahead of time.
    Mr. Perlmutter. Thank you, Mr. Chairman.
    Mr. Carney. Thank you, Mr. Perlmutter. The Chair now 
welcomes and recognizes Mr. Taylor from Mississippi for 
questions.
    Mr. Taylor. Thank you, Mr. Chairman. Again, I want to thank 
all of my colleagues for coming here today. I would also like 
to note the presence of Mayor Favre of Bay St. Louis, Mayor 
Longo of Waveland, Mayor Skellie of Long Beach, and Mayor 
McDermott of Pass Christian. And with your permission, since 
we're not allowed to testify, I would hope the Committee would 
give them the normal five legislative days to submit their 
thoughts towards this process.
    Mr. Carney. No objection. So ordered.
    Mr. Taylor. I would like to point out also to the Committee 
and account for the heroes, one of them is over there behind 
that camera. His name is Al Shows, he was with Channel 13 and 
he was one who was there with the first responders as I was 
telling you as they kept retreating inland, and ended up at the 
Third Emergency Operations Center. Somewhere between the first 
and third they actually marked, they wrote on their sleeves 
with Marks-A-Lots in case they died. I think he was number 35.
    Mr. Shows. 34.
    Mr. Taylor. 34, OK. But we appreciate you being here. And 
again, I know I keep saying this a lot, but to give you an idea 
of the magnitude of what happened here, if you look overhead 
and see the rust stains, that's from the salt water spray. The 
water was about four feet deep in here and the salt water spray 
is what caused that. It's just the unthinkable happened, and 
that's what I want to keep emphasizing to the FEMA folks is, 
OK, the unthinkable has happened once.
    I'm told on the Armed Services Committee by the Generals 
and the Admirals that we are due for a weapon of mass 
destruction attack on the United States. We know that about 
half of all Americans live in a coastal community, and when the 
unthinkable happened here our bridge going east, our bridges 
going west were destroyed. We were down to one lane of traffic 
going north and south for about the next 150 miles, and we saw 
how hard it was to get fuel in here for the few vehicles that 
could run. The local police, as I have told y'all, actually 
broke into the car dealerships and stole vehicles because all 
of their vehicles had gone underwater. One of the things that I 
have repeatedly asked FEMA is for a water borne strategy for 
getting fuel in here. As desperate as we were for fuel here, I 
would guarantee you a steak dinner that sitting in the harbor 
of Pensacola were barge loads of diesel fuel, and that with the 
right contacts and the right calls within 20 hours we could 
have had a barge load of fuel here at the Port of Bay St. 
Louis. We could have another one in Pass Christian and another 
one in Gulfport. And so instead of draining shrimp boats and 
draining fuel out of vehicles that had been under water as we 
desperately were looking for fuel.
    So the question is, what has FEMA done between then and now 
to develop a water borne strategy for response?
    The second thing I want to point out is because of the good 
work of CMO, Admiral Mullen, I was able to get in touch with 
him the day after the storm, he had the hospital ship, I'm 
sorry, the USS Baton off shore. They flew radios into all the 
hospitals that had gone under water. They told them if it gets 
beyond what you can handle you call us, we will send a 
helicopter in to get your patient and we will take them out to 
the hospital and we'll take care of them.
    But additionally the Navy sent the hospital ship Comfort 
over to Pascagoula, Mississippi. It was at the dock. I would 
like Mr. Delahousey to tell me as the head of American Medical 
Response, what were his orders from the State Department of 
Health as far as taking people to that ship, but I think you 
will find that very interesting.
    The third thing is the total lack of communications. Major 
May, you know, we were down to one satellite phone in this 
county for four days, and if it wasn't for the National Guard 
we wouldn't have had that. What has changed since then?
    And then lastly, since I still have 20,000 families in this 
district living in FEMA trailers, and 7,000 are from Purvis, 
Mississippi, and I just had a town meeting up there where a lot 
of the neighbors adjoining that were pretty upset. Why is it 
that two years after the storm, we're still renting property to 
house those 7,000 trailers when the Nation owns 100,000 acres 
within 10 miles of there at Camp Shelby. And why are we paying 
to rent property through FEMA when we could be sticking those 
trailers--and I have brought this to you superior's attention, 
and I have not been satisfied with the answer. So I'm going to 
ask the question again, and I'm going to keep asking the 
question, why are you wasting money?
    Lastly, I would like to note that we heard from Mr. Mike 
Lipski from Congressman Pickering's office with us. And we have 
Mr. Scott Walker from Senator Lott's office with us, and I want 
to thank them for being here.
    But those are the questions, in any particular order. Mr. 
Delahousey, why don't you start after seeing the trouble of 
bringing in the hospital ship Comfort to a place that had lost 
its hospital, what were your instructions as far as bringing 
people to that hospital that needed medical care?
    Mr. Delahousey. We've never had a level one trauma center 
in south Mississippi. We may never, in my lifetime anyway. We 
did for about a month period after Katrina, and it was in the 
form of the USS Comfort docked at Pascagoula. We were so 
pleased to hear that that resource was there, and I was shocked 
to receive a phone call indicating that we should not take 
patients to the USS Comfort, and I questioned why and I was 
told because it was not a state approved resource. That did not 
come from MEMA, but from the Department of Health, said it was 
not a state approved resource. And I said, well, I think there 
is a higher authority that authorized it to come here. You 
know, perhaps the Commander in Chief or somebody, but we could 
not take advantage of it. And they were relegated to giving 
tetanus shots and doing other things. They sent their crews out 
to man the hospitals. The hospitals wanted to decompress and 
put their patients on board so they could get a break, and they 
stayed here for several weeks and then weighed anchor and went 
to New Orleans instead.
    Mr. Taylor. So again, the point I'm trying to make is, the 
sort of thing that we ought to be doing during good times is 
having agreements in place between FEMA, between the United 
States welfare, between the states to where that doesn't happen 
again. I mean, seeing them literally turn that ship around, 
brought it up to Mississippi on very short notice, and that 
resource was not used. The doctors on the ship, and the medics 
on the ship were so frustrated with the situation that they 
literally grabbed their medical packs and walked into town. 
Again, they didn't have any vehicles with them, and just set up 
shop.
    Major May, again, if you look behind you about a quarter of 
mile you will see a jetty, and at the end of that jetty are 
some large posts, and up until the opening of that bridge our 
Nation was good enough to provide ferry service to make up for 
the fact that the bridge was gone. I have asked the city and 
the county and the region, which is traditionally owners of 
that property, if they would allow that to remain rather than 
being torn up like in the original contract. And the reason for 
that is I'm convinced it's going to happen again, and we need a 
place where they can either bring in LKA's, amphibious, from 
the ships, or for more importantly fuel. I have got to tell you 
people were taking it out of their shrimp boats, they were 
taking it out of vehicles that had been under water. What is 
the plan now? I mean, do you have a list of the fleeting 
operations, and have agreements with those people, because we 
always know it's the east side of the storm that gets 
clobbered; it's the west side of the storm that traditionally 
is OK. And so there is always going to be an east side and a 
west side along the Gulf Coast. Do you have agreements in 
place, now that it's two years after the storm, to bring in 
fuel by barge so that we don't have to fight 180 miles of 
downed power lines and downed trees next time?
    Major May. I'm going to have to get back with you on 
specifics, but that contract with FEMA does have a fuel 
contract in place. Whether or not it has a sea facet to that I 
do not know, but I'll get that to you in writing.
    Mr. Taylor. OK.
    Major May. Second, you mentioned the housing issues, 
clearly FEMA's soft under belly, long term housing really has 
never been something FEMA had the depth of experience to be 
able to do. FEMA now is partnering with HUD to get them 
involved to look at some long term solutions.
    FEMA also lead a housing initiative with the states, 
various states, Katrina states. Mississippi competed for that 
and there is some money available to put some Katrina type 
cottages, we call them, together, and the state is working to 
establish those sites for those.
    But I don't have any good information to give you about how 
we can do this quickly. It's going to take some time.
    Mr. Taylor. Again, I want to ask specifically the question, 
why are we renting land in Purvis, 10 miles from where the 
Nation owns Camp Shelby. That just strikes me as insane. I 
could see having to do things on the fly right after the storm. 
That was 21 months ago, and I think you're wasting my Nations 
money, and I will continue to write Mr. Chertoff about this, 
Mr. Paulison about this, and I'm going to keep raising the 
question until this gets corrected.
    The last thing is, I told some of the members of the 
Committee, but Mike and Charlie came a little bit late. I 
really want to commend Mayor Favre and Mayor Longo. I didn't 
get down to Bay St. Louis until the day after the storm. By the 
time I did so from the at application EOC that I pointed out to 
you, and they had allowed police sanctioned looting of the Wal-
Mart, of the Winn Dixie and the Sav-A-Center. They actually 
found a stove in the street and the guy was clever enough to 
hook it up to a propane tank and was cooking for the emergency 
responders, and that's how we fed the City for the first three 
or four days.
    Now, Mr. May, I just complimented my Mayor on some heads up 
responses to a tragedy that no one could have imagined. But I 
do want to remind you that when Michael Brown came before the 
Homeland Security Committee last year he made a statement that 
really got my ire. He said, ``You are supposed to have three 
days worth of food. We ought to have at least three days of 
food.'' Well, as you have seen if you drive up and down the 
street, there are a lot of people that had a weeks worth of 
food in their freezer. The only problem is they don't have the 
foggiest idea where their freezer is the next day because their 
house is gone. And we as a Nation have to be in a position to 
respond to situations like that. Now, these guys made a heads 
up call. In a community where everybody knows each other and 
therefore was kind of self policing, but that's not going to 
happen in New York City. That's not going to happen in Los 
Angeles. So, I would really encourage you as a Nation, we've 
got to be able to respond quicker than three days.
    The other point I want to make is you've now seen this is a 
fairly large, not very sparsely populated county. 30 miles, we 
are out there about 30 miles. Your local FEMA guy insisted on 
one point of delivery for food in a county that 90 percent of 
it had gone under water. So no one has got a vehicle. The one's 
that do have vehicles don't have fuel. And his answer for that, 
his excuse for that was, well, until the National Guard shows 
up I'm not going to do it because there will be riots.
    Number one, he wasn't aware that the Mississippi Guard was 
in Iraq. I had to walk him through that.
    But the second part is, he was just totally insensitive to 
the fact that there were neither vehicles nor fuel. And we 
ended up razooking a couple of vehicles from the National Guard 
delivering fuel. But that's got to be a part of your plan, 
because the worst is going to happen, and whether it's Los 
Angeles, New York City, because of man made terror or a natural 
disaster somewhere in coastal America. Your game plan has got 
to be better because it's life and death. And what happened 
with Katrina is water under the bridge. Don't you know there's 
an expression in the country, the dog bites me the first time 
it's the dog's fault. That same dog bites me the second time, 
it's my fault.
    I sure hope your agency has learned from some of these 
challenges, and learned from some of the mistakes, and I would 
love to hear your response to that, because those were things 
that I saw with my eyes that if these local guys had not made 
such good, quick, by the seat of their pants calls, a lot of 
people would have died.
    Major May. The last the thing you mentioned, which is the 
distribution of commodities, we're working, we'll be working 
with the state, or worked with the state, on points of 
distribution, and they will be working with the counties to 
determine where those points of distribution should be in the 
county so you could get those commodities out and we will be 
responding to where those points of distribution have been 
identified by county and state officials.
    Mr. Taylor. Mr. Chairman, thank all of you again for coming 
to south Mississippi.
    Mr. Carney. I thank Mr. Taylor for his invitation and for 
the witness's testimony. I want to thank the audience for being 
attentive and paying attention, it helps us.
    Members of the Subcommittees may have additional questions 
for the witnesses, and we will submit them in writing and we 
would expect an expedient response.
    Hearing no further business, the subcommittees stands 
adjourned.
    [Whereupon, the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
